<html>
<title> - U.S. POLICY AFTER RUSSIA'S ESCALATION IN SYRIA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



                 U.S. POLICY AFTER RUSSIA'S ESCALATION 
                                IN SYRIA

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 4, 2015

                               __________

                           Serial No. 114-116

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 _________
                                 
                       U.S. GOVERNMENT PUBLISHING OFFICE
97-460PDF                    WASHINGTON : 2015                       
                      
_______________________________________________________________________________________                      
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e7809788a7849294938f828b97c984888ac9">[email&#160;protected]</a>  
                    
                      
                      
                      
                      
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Anne W. Patterson, Assistant Secretary, Bureau of 
  Near Eastern Affairs, U.S. Department of State.................     5
The Honorable Victoria Nuland, Assistant Secretary, Bureau of 
  European and Eurasian Affairs, U.S. Department of State........    13

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Anne W. Patterson: Prepared statement..............     7
The Honorable Victoria Nuland: Prepared statement................    15

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Prepared statement......................    65
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    67

 
                 U.S. POLICY AFTER RUSSIA'S ESCALATION 
                                IN SYRIA

                              ----------                              


                      WEDNESDAY, NOVEMBER 4, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:08 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce [presiding]. This hearing will come to 
order.
    So, this hearing is on U.S. policy after Russia's 
escalation in Syria. It is now nearly 5 years into the Syrian 
conflict. That conflict has claimed more than \1/4\ million 
lives. There are 4 million people right now that have been 
driven from their homes in Syria. Now, through it all, the 
administration's response has been tepid. It has been a series 
of steps that were micromanaged by the White House that were 
very ineffectual. When I say ``ineffectual,'' we had a 
situation here where we had hearings during the time, a 1-year 
period in which as ISIS began to move out of Raqqah, Syria and 
take major cities, during that period of time, as we were 
calling for airstrikes, as our Ambassador in Baghdad was 
calling for airstrikes, there were 14 major cities that fell to 
ISIS, fell at a time when in pickup trucks on an open desert 
road these were clear targets that could have been taken out.
    But a choice was made. Sometimes indecision, the decision 
not to make a decision, is itself a choice. The choice was made 
in the United States not to stop ISIS then, when it could have 
been stopped. And the choice was also made not to arm the 
Kurds. Three trips out here by the Foreign Minister of 
Kurdistan asking for the anti-tank weapons, the artillery, the 
long-range mortars that they needed. Thirty percent of their 
troops, 30 percent of their brigades are women, females, 
fighting on the frontlines against ISIS on a 600-mile front. 
And the decision was made not to arm them.
    So, ISIS now stands where it stands gaining ground as a 
result of our failure to act. Today the President still hasn't 
put forward the broad, overarching strategy needed to defeat 
this brutal movement, this movement of terrorists and, frankly, 
to secure vital U.S. national security interests here. But, 
instead, it is now Russia that is taking the decisive role in 
shaping Syria's future and not in a helpful way. Putin saw 
Assad losing ground. So, Russian jets have teamed up with the 
Iranian ground forces to solidify the Syrian dictator, and the 
focus of the Russian and Iranians' joint offensive is not ISIS. 
It is not their strongholds, but it is the opposition forces 
backed by the United States and Saudi Arabia.
    Russian bombs, according to the NGO groups that report on 
this, they say over half of the Russian attacks have now been 
on civilian targets. Russian bombs have flattened markets, 
schools, villages. And the Russians at one point were bombing 
more targets, more targets, in one solitary day than we hit in 
a month and our air campaign there is even more anemic, for 
those of you that have followed what has happened as a 
consequence of Russia moving into these operations. The 
administration claims that it lacks targets. Yet, the special 
forces it is sending to Syria won't even be spotting targets. 
Russian attacks on the opposition and the slowdown in coalition 
airstrikes has actually allowed ISIS now to gain territory. 
ISIS is expanding. Let no one be under the delusion that Russia 
is focused on ISIS.
    While the President characterizes Russia's moves as a sign 
of weakness, it is Assad who is growing stronger. Moscow's 
efforts show no sign of slowing. Russian cargo aircraft have 
been seen running Iranian weapons into Syria, a violation of 
the U.N. arms embargo, a violation that I assume is not going 
to be called to attention or challenged. But it is a clear 
violation of that agreement at the United Nations.
    This is especially troubling as we begin another attempt to 
restart talks between the regime and the opposition on a new 
constitution and elections, and here is why: Russia claims its 
goal is a united secular and democratic Syria, but its efforts 
to prop up the Assad regime prove otherwise. How do we expect 
the opposition to sign onto any sort of ceasefire as long as 
Russia and Iran are demanding that Assad, who has murdered over 
200,000 civilians? For those of us in this hearing room, we 
have heard in the past Caesar come forward with his photographs 
that he took, 50,000 photographs, of people tortured by the 
regime. That kind of conduct by this regime means it has lost 
all legitimacy with the Syrian people. So, the Russian plan is 
to have him stay in power and to ask at the outset that he 
stays in power. The statement from Vienna didn't even demand 
that that Assad regime stop using crude barrel bombs, some 
filled with chlorine gas, against civilians. That would have 
been a minimum step that the Russians could have supported. But 
their planes, they provided the air force originally to Assad.
    So, a diplomatic solution is only possible with a strong, 
coherent, moderate opposition that can serve as a bridge from 
Assad to a new post-conflict government. Yet, the 
administration has done little to help the opposition. Its 
feeble train and equip program is now defunct. Washington 
bureaucracy and over-deference to the Shia-led Iraqi Government 
has held up desperately-needed weapons shipments to the Kurds, 
and no one believes Friday's announcement of 50 special forces 
will be decisive.
    Ultimately, it is President Obama's responsibility tp step 
up and outline a plan to engage our partners and allies and 
bring stability to the Middle East. He is the Commander-in-
Chief, but here is where I would start. As I have already said, 
we have urged for the longest time: Decisive airstrikes against 
ISIS. We have urged for the longest time: The arming of the 
Kurdish and Yazidi men and women out there on the frontlines 
with the weapons they need to turn back ISIS.
    If we want an opposition to negotiate from a position of 
strength, why not help create sanctuary areas in Syria? This 
would help the Syrian people escape both the Assad regime and 
the Islamic State. This would also allow for more effective 
humanitarian relief and even slow the exodus of refugees.
    We must also push back on Russia and Iran's destabilizing 
intervention in this conflict, and that means passing tough new 
sanctions on Iran's terrorist proxy, Hezbollah, because it is 
Hezbollah that is taking over homes in this region that used to 
be inhabited by Sunnis, as the ethic cleansing continues. So, 
we need to pass that legislation, as the House has done, and 
take action to uphold the U.N. arms embargo on Iran in the face 
of Russian violations.
    Everyone but the White House seems to know the status quo 
cannot stand. General David Petraeus recently testified to 
Congress that ``Syria is a geopolitical Chernobyl and, like a 
nuclear disaster, the fallout from the meltdown of Syria 
threatens to be with us for decades,'' he said, ``and the 
longer it is permitted to continue, the more severe the damage 
will be.'' Those were his words.
    I will now turn to the Democratic side for any opening 
statement. Yes, Lois.
    Ms. Frankel. Thank you very much. Thank you, Mr. Royce.
    And I thank the witnesses for being here today. I know 
you're going to be able to well handle the questions that are 
going to be asked you.
    Mr. Chair, I wanted to just express a little different 
point of view. First of all, I want to say this, Mr. Chair: 
Thank you for this hearing. I think you have raised some very 
good questions and you have expressed the great frustration 
that a lot of us feel about Syria. I mean, it is horrific what 
is going on.
    But, I mean, some people would say that ISIS or Daesh, 
whatever we call them today, came about not because of 
something President Obama did, but, I mean, there are some who 
would argue that it was the previous administration's decision 
to go into Iraq erroneously that started this mess that we see 
there today with a failed occupation of Iraq, a new government 
that was not inclusive. You have a void, and then, you see ISIS 
come from that void.
    But I do want to say this: I don't want to play the blame 
game. That is what some people say. But I think what is 
important now is just to focus on the here and now and what we 
need to do.
    This mess in Syria and the Middle East is not the fault of 
our President. There is a lot of blame to go around, but I am 
going to put it on terrorists more than the President of the 
United States.
    I will be very interested in hearing what our two witnesses 
have to say.
    Thank you, Mr. Chair.
    Mr. Keating. Will the gentlelady yield?
    Ms. Frankel. Yes.
    Mr. Keating. Thank you.
    We have time left, the opening statement time, and I just 
want to set a framework here as we have this discussion.
    I will say this with the administration and, frankly, with 
the critics of the administration: I, for one, did not see the 
value of pursuing with a vetting of the Syrian rebel army. I 
can say that myself, looking at what happened.
    But the one thing I want to have emphasized in this hearing 
is that you can't things both ways. You can't say we should be 
putting in U.S. troops on the ground there, and you can't do 
that and do even a modicum of security for those troops unless 
you are willing to hold that troop and have a huge investment 
of our troops.
    So, the people that say the President didn't come in and he 
should have come in with troops, you just can't come in, drop 
them in, pull them out. We didn't have intelligence on the 
ground in Syria to make that safe for those troops that the 
time.
    No. 2, we have to be prepared for those people that say 
that, that those troops have to have the support of tens of 
thousands of other troops. So, let's not have it in this 
hearing both ways. If you are going to take that tack with the 
President, you have to be able to say, ``Well, I support ground 
troops for the long term,'' tens of thousands on the ground, 
because you can't put them in there without supporting them 
safety.
    So, I hope when we have this discussion today, we bear that 
in mind. If people have that opinion, then I respect their 
opinion, but I don't think that that is the best thing for our 
country at this time.
    And I yield back.
    Chairman Royce. Thank you, Mr. Keating.
    I would like to make it clear that that is not the opinion 
of the members of this committee. What the members of this 
committee called for, for a full year of indecisive action, was 
the use of our air power; was a memory that we had had 116,000 
airstrikes during the first Gulf War against 42 divisions of 
Saddam Hussein. These were armored divisions, many of them, and 
that it was very successful during the invasion of Kuwait.
    What we called for here was not the introduction of U.S. 
brigades. What we called here was for the President of the 
United States to use the authority he had in order to take out 
the beginning of insurrection that started in pickup trucks. 
And if you can take out armored divisions, you could certainly 
from the air take out pickup trucks from the open desert.
    And the frustration that I am expressing is over the fact 
that for 1 year nothing was done, as city after city fell to 
this marauding terrorist organization.
    But I should transition to the witnesses today.
    But it is partly that frustration and it is partly with 
meeting time after time on a bipartisan basis with the Kurdish 
and the Yazidi opposition asking for arms and being denied the 
arms to defend themselves. Those are the issues I am speaking 
to.
    But, at this time, I would like to go to Ambassador Anne 
Patterson, Assistant Secretary of State of Near Eastern 
Affairs. She is a career member of the Senior Foreign Service 
and previously Ambassador Patterson served in multiple posts, 
including Egypt and Pakistan, and as Assistant Secretary of 
State for International Narcotics and Law Enforcement Affairs.
    And then, to Ambassador Victoria Nuland, before assuming 
her position as Assistant Secretary for the Bureau of European 
and Eurasian Affairs at the Department of State, Ambassador 
Nuland served as the Department of State's spokesperson. She 
also served as the United States permanent representative to 
the North Atlantic Treaty Organization from 2005 to 2008, 
focusing heavily on NATO Russia issues.
    Without objection, the witnesses' full prepared statements 
will be made part of the record, and the members here will have 
5 calendar days to submit any statements or questions or 
extraneous material for the record.
    Ambassador Patterson, if you could begin?

    STATEMENT OF THE HONORABLE ANNE W. PATTERSON, ASSISTANT 
 SECRETARY, BUREAU OF NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    Ambassador Patterson. Thank you, Mr. Chairman, members of 
the committee. Thank you for the opportunity to appear before 
you today to explain our strategy for resolving the devastating 
conflict in Syria and defeating ISIL there.
    Coming after the President's decision to intensify the 
campaign against ISIL and Secretary Kerry's meetings in Vienna, 
the design of a path forward for a political transition, this 
hearing is particularly well-timed. Secretary Kerry said it 
best in Vienna: ``Our task is to chart a course out of hell.''
    Since the start of the Syrian war, as you outlined, Mr. 
Chairman, over 225,000 Syrians have died and we face the 
largest refugee crisis since World War II. The conflict has 
become a magnet for extremists seeking to change the map of the 
Middle East, destroy economies and cultures, and terrify an 
entire population. It is threatening Syria's neighbors Iraq, 
Jordan, Lebanon, and Turkey, with major consequences for U.S. 
national interests and beyond.
    We are pursuing four interlinked goals. One, to defeat ISIS 
militarily in both Syria and Iraq. Two, to develop a political 
transition that gives Syria a future without Bashar al-Assad. 
Three, to ease the suffering of the Syrian people. And four, to 
stabilize our allies as they cope with massive refugee 
outflows.
    Our strategy is to leverage military action and intensive 
diplomacy to achieve a political transition in which Syrians 
ultimately have a government that respects the rights of its 
people. This political transition is critical to rooting ISIL 
out of Syria and ending ISIL's ability to threaten Iraq from 
Syria.
    As Secretary Kerry said in Vienna, ``There is absolutely 
nothing that could do more to fight Daesh than to achieve a 
political transition that strengthens the governance capacity 
of Syria, sideline the person we believe attracts so many 
foreign fighters and so much terror, and unites the country 
against terrorism.'' We cannot defeat ISIL in Iraq without also 
defeating ISIL in Syria.
    Moving forward, we first are intensifying the military 
campaign against ISIL through airstrikes and cooperation with 
local partners who have already pushed ISIL out of all but 68 
miles of the nearly 600-mile border between Syria and Turkey. 
We and our coalition partners have launched over 2600 strikes 
in Syria and, thanks to Turkish support, we are deploying A-10s 
and F-15s to Incirlik Airbase to expand our strike capacity.
    The President, as you mentioned, has ordered the deployment 
of up to 50 U.S. Special Operations Forces in northern Syria to 
work with our Arab and Kurdish partners, and we will support 
them with additional air power.
    Next, the United States is providing $150 million a year to 
the moderate opposition to meet humanitarian needs and provide 
governance support in areas liberated from ISIL. As the largest 
single donor since 2011, we have provided over $4.5 billion in 
humanitarian assistance to Syria. This includes nearly $2.5 
billion for aid inside Syria, almost $1 billion for UNHCR 
programs in Lebanon, and over $650 million to Jordan.
    We are enhancing military assistance to help our regional 
allies, including Jordan and Lebanon, repulse extremist threats 
from ISIL and Nusra. Thanks to General Allen's leadership, we 
are leading a global 65-member coalition working to degrade and 
defeat ISIL.
    Mr. Chairman, let me address head-on Russia's dangerous 
military intervention in Syria. Moscow deployed forces because 
its ally, the Assad regime, was losing territory, and even Iran 
support was insufficient to protect it. Moscow has cynically 
tried to claim that its strikes are focused on terrorists, but, 
so far, 85 to 90 percent of Syrian strikes have hit the 
moderate Syrian opposition and they have killed civilians in 
the process.
    Despite our urging, Moscow has yet to stop the Assad 
regime's horrific practice of barrel-bombing the Syrian people. 
So, we know that Russia's primary intent is to preserve the 
regime.
    In Vienna, Secretary Kerry brought together all those who 
can help in the conflict. Iran was invited for the practical 
reason that it is an active participant that needs to support a 
political transition. It will come as no surprise to you that 
this group disagreed on several subjects, most notably, the 
fate of Assad.
    They did agree, however, to convene regime and opposition 
representatives on the basis of the Geneva Communique of 2012 
which set out goals for the transfer of power to a transitional 
governing body and to explore modalities for a ceasefire in 
parallel with the political process. They also agree we must 
preserve Syria's unit and territorial integrity, ensure state 
institutions remain intact, protect the rights of all Syrians, 
assure humanitarian access, defeat ISIL and other terrorist 
groups designated by the U.N. Security Council, and establish a 
political process leading to a new constitution and elections 
administered under U.N. supervision and standards. We will 
convene parties at the ministerial level in the next few weeks 
to discuss next steps.
    Mr. Chairman, no one has any illusions about the difficulty 
of these efforts, but one thing is clear: Assad cannot unite 
and govern Syria and we cannot continue to hold the lives of 
the Syrian people hostage to the desire of one man to remain 
power. We, the Syrian people, and our regional allies need a 
political transition that ends ISIL's reign of terror and 
allows displaced Syrians to return home.
    Thank you, Mr. Chairman. I would be happy to take 
questions.
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         
                              ----------                              

    Chairman Royce. Thank you.
    We go now to Ambassador Nuland.

     STATEMENT OF THE HONORABLE VICTORIA NULAND, ASSISTANT 
   SECRETARY, BUREAU OF EUROPEAN AND EURASIAN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Ambassador Nuland. Thank you, Chairman Royce, members of 
this committee, for the opportunity to join you and my 
colleague, Assistant Secretary Anne Patterson today.
    While Syria is in Assistant Secretary Patterson's area of 
responsibility, the conflict there increasingly imperils 
Turkey, the EU, and the rest of Europe, as refugees stream out 
of Syria and head both north and south. Russia's new direct 
combat role in Syria has exacerbated an already-dangerous 
refugee outflow, straining even the most generous European's 
ability to cope.
    Turkey currently hosts 2.2 million refugees and, by its 
account, has invested over $8 billion toward their care and 
well-being. This year the Turkish Coast Guard rescued an 
estimated 68,000 individuals attempting a dangerous sea voyage.
    Just since Russian combat operations began in Syria, Greece 
has recorded its highest level of migration flows per week with 
an estimated 48,000 refugees and migrants crossing into the 
country in 1 week.
    The Western Balkans is also stretched thin from increased 
migration, primarily through Macedonia, Serbia, and Croatia. 
These countries report an average of 5,000 to 8,000 
<greek-l>thousand  deg.migrants passing through their borders 
daily.
    Germany is under strain. It has recorded over 577,000 
arrivals just in the last 9 months.
    Inside Syria, just over the last month while the Russians 
have been active, the United Nations reports at least 120,000 
Syrians have been internally displaced as a result of the 
regime's attacks aided by Russian airstrikes. Fifty-two 
thousand eight hundred people were displaced from northern Hama 
and southern Idlib alone.
    These numbers validate what we already know and what you, 
yourself, Chairman, pointed out. While Moscow asserts that its 
military actions are directed at ISIL, the vast majority of 
Russian airstrikes are targeted in areas where the Assad regime 
has lost territory to forces led by the moderate opposition: 
Hama, Homs, Aleppo, and Idlib.
    Now Russia is fielding its own artillery and other ground 
assets around Hama and Homs, greatly increasing Russia's own 
soldiers' vulnerability to counterattack, and Moscow has 
failed, as you said and as Assistant Secretary Patterson said, 
to exact any humanitarian concessions from the Assad regime as 
the price for Russian support. The regime continues to barrel-
bomb its own citizens with impunity, perhaps even emboldened by 
Moscow's help.
    None of this has been cost-free for Russia itself. In pure 
economic terms, the price of its air campaign is estimated at 
$2 million to $4 million per day, this at a time when average 
Russians are feeling the pinch of recession brought on by 
economic mismanagement, low oil prices, and sanctions applied 
for the Kremlin's last military adventure in Ukraine.
    Russian casualties are also reportedly on the rise, 
although the Kremlin is again working overtime to mask them and 
silence the loved ones of the lost. As the dumb bombs that 
Russian is dropping inevitably hit the wrong targets--a market 
in Damascus, the Aleppo provincial headquarters, and ammunition 
dump of the Free Syrian Army--Russia is paying a very steep 
price to its reputation in the fight against terror. That is 
why, for now, we have limited our own military cooperation with 
Russia to the most basic of aviation de-confliction procedures 
to protect our own aircrews.
    What would positive cooperation by Russia look like? First, 
Russia would turn its guns on ISIL and stop the carnage in and 
around Syria's western cities. As the price of its support, 
Moscow would insist that Assad ground the helicopters and 
planes that he is using to barrel-bomb innocents on a daily 
basis. And it would urgently work with us, our allies, and U.N. 
Envoy Steffan De Mistura to turn the statement of principles 
that Secretary Kerry, Foreign Minister Lavrov, and 17 other 
ministers and institutions released in Vienna last Friday into 
a true ceasefire, a parallel political transition process, and 
hasten the day that Assad's bloody tenure comes to an end.
    The quality of our cooperation with Russia and Syria 
depends on the choices that Moscow makes. In the meantime, as 
the Secretary has said, and as Assistant Secretary Patterson 
has outlined, we are accelerating the work we are doing to 
support the moderate Syrian opposition and to protect Syria's 
neighbors, including those in my area of responsibility, Turkey 
and the countries of Europe.
    Turkey has increased its own participation in the counter-
ISIL fight, opening its bases to U.S. and coalition members and 
conducting its own airstrikes on ISIL targets inside Syria. As 
we accelerate our own work with Turkey and other like-minded 
partners to roll back ISIL in northern Syria, a collateral 
benefit could be the creation of a space where Syrian civilians 
are free from Assad's barrel bombs as well as ISIL's 
atrocities.
    A large number of Europeans have contributed aviation 
assets for strike operations in Iraq and some are also 
considering strike operations in Syria. We are obviously also 
working with our allies and partners to address the refugee 
crisis. We have provided Turkey with over $325 million in 
assistance through the U.N. and private NGOs, and we have 
provided $26.6 million for UNHCR operations in Europe, 
including to help with food, water, and legal assistance for 
refugees, including $600,000 now to respond to requests from 
Western Balkan countries for equipment and training in the area 
of border management.
    As the Secretary's diplomatic efforts made clear, it is 
going to take leadership and resolve by dozens of countries and 
by the Syrians themselves to end the bloodshed there. In Vienna 
last week, 17 assembled nations, the U.N., and the EU 
reaffirmed the path forward to peace and a political 
transition. It remains to be seen whether Russia, Iran, and the 
Assad regime will join us in walking that path.
    We look forward to your questions.
    [The prepared statement of Ambassador Nuland follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
      
                                 ----------                              

    Chairman Royce. Thank you, Ambassador Nuland.
    I mentioned my frustration with how the administration has 
approached Syria and ISIS. The fact is that we had the State 
Department here, officials, in front of this committee 2 years 
ago sounding the ISIS alarm, explaining that action had to be 
taken.
    The Iraqis and our own officials pushed for airstrikes 
early on and pushed for those airstrikes when ISIS was most 
vulnerable in Raqqa, in Syria, but the White House sat 
paralyzed. Once the airstrikes did start--and that is after a 
year of watching cities fall from Fallujah to Mosul and the 
Central Bank being taken over by ISIS--after that, we finally 
saw airstrikes averaging 19 a day, but in a circumstance in 
which three-quarters, because of exceedingly restrictive rules 
of engagement, three-quarters of those planes flew back to 
their bases without dropping their ordnance. If we compare that 
and consider the first Gulf War, Desert Storm, those airstrikes 
averaged 1,000 combat sorties per day, not 19.
    And now, enter the Russians. The State Department said that 
this wouldn't impact our air mission over Syria. And yet, the 
numbers that the committee put together say otherwise. In 
October, while the Russians did 800 airstrikes for the full 
month, mostly aimed, by the way, at the opposition, we managed 
just 100 against ISIS.
    Assistant Secretary Patterson, are we ceding the skies to 
Russia here and, in effect, allowing the ISIS threat to grow, 
because, after all, ISIS has gained territory here during this 
timeframe? So say the NGOs on the ground.
    Ambassador Patterson. Mr. Chairman, obviously, I am not 
from DoD, but let me try to answer this question. Actually, 
this question came up at a very high-level meeting, and I will 
quote to you what a senior military officer said, which is we 
don't hit targets we can't see--and this was in reference to 
the very bad weather that had overtaken the area last week when 
the strikes were limited--and that we can't be compared to the 
Russians in any moral or operation or tactical sense.
    The battlefield, I might suggest, Mr. Chairman, is very 
different and a very complex battlefield mixed in with 
civilians. There are very high standards vis-a-vis collateral 
damage and civilian casualties that I would suggest the Russian 
air force is not subject to, and that we are appropriately 
subject to, which is different, very different, than the first 
Gulf War and the amass of conventional forces.
    So, that I think is at least a partial answer, Mr. 
Chairman, to your question.
    Chairman Royce. Well, from the way I perceive it here, 
especially given my frustration with the first year of this 
conflict and not utilizing any air power when it could be very 
effective, we have a situation today where we are hitting the 
bad guys in this, ISIS, 100 times, and the Russians are hitting 
those that are opposed to ISIS and Assad 800 times. That is my 
takeaway in a broad sense of where we are now.
    But, Ambassador Nuland, this isn't just Russia reaching out 
to save an old ally, when we look at those remarks. We are 
seeing Russia and Iran work together in ways most had not 
expected. I certainly don't think the administration expected 
it. I don't think they expected we find Hezbollah fighters and 
Iranian Quds Forces and Russian headquarters working together 
in this kind of a circumstance.
    But this was General Soleimani traveling to Moscow in the 
middle of our nuclear negotiations and putting this plan in 
place. Twice, as I understand it, he made that travel, in 
violation, by the way, of the embargo. Again, something that 
wasn't objected to when I raised the issue that the head of the 
Quds Forces, who by the way was responsible himself indirectly 
for the death of some 600 Americans, I am told by the Pentagon, 
that he was in Moscow making arrangements with the Russians. 
There was no protest that I am aware of, of this being a 
violation of the travel ban.
    Of late, Russian aircraft have been seen running Iranian 
weapons into Syria. Again, that is a very clear violation of 
the embargo which we all support.
    So, what steps are being taken to uphold the U.N. arms 
embargo on Iran in the face of the Russian violations?
    Ambassador Patterson. Mr. Chairman, I am unaware of those 
reports about the movement of Iranian arms into Syria on 
Russian aircraft, but we will certainly get you a report as 
soon as possible.
    Chairman Royce. Thank you.
    I am out of time. I will mention, when Mr. Engel returns--
he is at the White House--we will give him ample time for his 
opening statement and for his questions.
    But, in the meantime, I think Karen Bass of California is 
next in the queue.
    Ms. Bass. Thank you, Mr. Chair.
    In light of the President's statement last week that we 
were deploying 50 Special Operation Forces to Syria, I wanted 
to know what you see as their mission. Do you expect them to be 
engaged in direct combat? And how can we be sure that this 
limited deployment won't be a slippery slope to involve U.S. 
troops?
    I would join my colleague, Ms. Frankel, who said that, had 
we not invaded Iraq years ago, that the whole region wouldn't 
be destabilized as it is now. But, in light of that, I wanted 
to know if you could respond.
    I also want to ask you a couple of questions regarding a 
future transitional government in Syria.
    Ambassador Patterson. Thank you.
    Let me say that I was in a briefing yesterday, and some of 
these responses on the activities and location of the Special 
Forces are classified.
    Ms. Bass. Sure.
    Ambassador Patterson. And so, perhaps we will come back to 
you in a written answer on that.
    Ms. Bass. Okay.
    Ambassador Patterson. We would be very happy to do so. And 
their exact role is also a classified response.
    But let me also say that we are also deploying, as I 
mentioned in my statement, additional aircraft to Incirlik. The 
President is looking at a number of other options to intensify 
our efforts in this battle space.
    Ms. Bass. In terms of the future transitional government in 
Syria, there were talks held in Vienna last week, and I wanted 
to know if you could talk about those. In the future, what do 
you feel is the best way to compel the regime to a negotiated 
transition? And that is for either one of you.
    Ambassador Patterson. Yes. Let me give you an outline, if I 
might, a brief one, of the Secretary's conversations in Vienna 
last week.
    He brought together 20 countries, including the Russians 
and the Iranians and our Gulf allies and the Turks, to discuss 
a way forward. We agreed, obviously, to disagree on the future 
of Assad, but he did plot a way forward on a transitional 
government/constitutional reform, and a series of meetings and 
working groups that would take place with the international 
community, with the U.N., and with the opposition to try to 
implement the Geneva Communique of 2012.
    The next meeting will likely be in Vienna within the next 2 
weeks. There will be a series of groups and consultations with 
the U.N. beforehand and with the opposition. The idea is to 
have a transitional government, to work on a timetable for 
Assad's departure--and let me be clear that that is a critical 
element of this policy--and, then, to work on constitutional 
review and, ultimately, an election in Syria. That is the basic 
outlines of Secretary Kerry's strategy.
    Ms. Bass. So, at this point, if there were to be a 
transitional government, who do you see composing that?
    Ambassador Patterson. Well, a number of opposition figures 
and people already on the ground. It would be key--and this was 
in the Communique--that Syria's institutions, the military, 
intelligence, police, civil service, would remain intact. So, 
you wouldn't have a total collapse of state authority. The idea 
is just to remove Bashar al-Assad----
    Ms. Bass. Like what happened in Iraq?
    Ambassador Patterson [continuing]. And his cronies from 
power.
    Ms. Bass. Thank you. I yield back my time.
    Mr. Connolly. Would my colleague yield?
    Ms. Bass. Oh, yes, sure.
    Mr. Connolly. Ambassador Nuland, what in the world makes us 
think Russia would agree to that? Why would Russia agree to a 
transitional government with opposition figures and the removal 
of Assad? And did you get that commitment?
    Ambassador Nuland. Congressman, Russia did agree to that 
general framework in 2012 when it signed onto the original----
    Mr. Connolly. Well, that is before they started bombing and 
military activities on the ground. It is now 2015. You had a 
meeting in Vienna. Did the Russians agree?
    Ambassador Nuland. So, as Assistant Secretary Patterson has 
said, they have agreed to the general framework that we need a 
ceasefire, we need a transitional government, we need 
elections. The area of dispute is at what stage in that process 
Assad departs the scene.
    Mr. Connolly. Well, I must say my time is up, but given 
what is happening on the ground, that sounds like fantasy to 
me.
    Chairman Royce. Mr. Chris Smith of New Jersey.
    Mr. Smith. Thank you very much. Thank you, Mr. Chairman for 
calling this important hearing.
    Welcome to our two distinguished witnesses.
    Let me just ask a couple of questions. First, I chaired a 
hearing last week with the Helsinki Commission on refugees 
emanating or coming out of Syria, and the High Commissioner's 
Regional Representative testified. His bottom line was that 
there were two big trends that have led to the mass exodus. 
One, a political solution will not be found anytime soon to the 
war. Secondly, after so many years in exile, many people's 
resources have dwindled to next to nothing.
    But he said the third factor is the trigger. It is the 
raison d'etre why people have up-staked and have made their way 
into Europe. He said the trigger was that a few months ago 
there was a lack of funding for the World Food Programme. They 
cut their assistance by 30 percent. And he testified and said, 
as a consequence, many refugees felt that the international 
community could be starting to abandon them.
    He pointed out as well that the interagency Syria Regional 
Refugee and Resilience plan for 2015 is only 41 percent funded. 
People are living on less than 50 cents a day. He said they 
decided to go into flight.
    My question would be, I know we are generous supporters of 
the WFP and I am very glad that Congress and the administration 
has done that. But did we anticipate that this might be a 
trigger, that there was such a huge cut to the World Food 
Programme?
    Secondly, let me ask, as Iran reaps its billions of dollars 
in windfall attributed to the Iranian nuclear deal, what is 
your assessment? Of course, you could provide this in a written 
form to elaborate on it. But what is your assessment of how 
that cash might be used to assist Assad?
    I also asked Assistant Secretary Richard last week about 
establishing a P-2 program for especially minorities like the 
Yazidis and the Christians who really don't pose a threat. I 
know we have a very, very robust vetting process, as we ought 
to, to ensure that we don't have ISIS or any other al-Qaeda 
types embedded in the refugees that come here. But a P-2 that 
targets people who are far less likely to be a threat to 
Americans seems to be something that I hope is on the table 
being very actively discussed.
    I yield.
    Ambassador Patterson. Mr. Smith, let me go through those as 
quickly as possible. On the question of the reduction in WFP, 
let me first say that we have done everything humanly possible 
to increase our contribution to WFP and to also solicit 
contributions from some or our prosperous allies in the Gulf 
who, in truth, have come through with an enormous amount of 
money, up to $2 billion for the Syrian refugees.
    Mr. Smith. Pardon my interruption. But is that getting to 
the people, so they know?
    Ambassador Patterson. Did we anticipate that it would be a 
trigger? I can't answer that, but we certainly anticipated that 
it would be a huge problem and deprive these people of 
desperately-needed resources. So, we are doing everything we 
can to beef up our humanitarian support.
    On the question of Iranian resources, I know this has been 
a frequent discussion with this committee and with other 
committees. The Iranian economy has been in free fall for the 
past several years because of sanctions. We believe there are 
huge pent-up needs in infrastructure, energy, reconstruction, 
consumer demand that the Iranian Government will have to meet 
and Rouhani, in particular, as an elected leader, will have to 
meet. But I don't want to be naive, Mr. Smith, that some of 
this money won't be used for the destabilizing activities of 
General Qasem Soleimani.
    Then, finally, I know that you had asked my colleague Anne 
Richard that, about P-2 program. Let me say, of course, that 
there is, frankly, a lot of concern, Mr. Smith, about people 
coming out of this area, that they are properly vetted and 
reviewed, given some of the history. But I know you have asked 
that and, believe me, it will certainly be under consideration, 
and we will get you a staffed-out answer.
    Chairman Royce. Mr. Bill Keating of Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman.
    I realize you are not speaking for the Department of 
Defense, as Assistant Secretary Patterson had mentioned. 
However, I just want to ask you if you have been at briefings 
and things you could disclose. Because in open hearings with 
this committee and subcommittees, we have had witnesses, 
generals, military experts, time after time saying that the 
unilateral approach of just bombing itself would not be 
effective strategy, that it had to be accompanied by the 
ability with troops on the ground to hold that area they had 
bombed. Otherwise, it was basically a worthless military 
strategy and approach.
    And so, it brings me back to my opening comments where I 
said simply bombing by itself without the ability, whether it 
be through Sunni Arab troops or other troops on the ground, or 
in absentia U.S. troops, the criticism about not continuing on 
that bombing aspect, it has to be incorporated with a land 
force complement.
    So, are you familiar with those kinds of discussions, 
Assistant Secretary?
    Ambassador Patterson. Yes, Mr. Keating, those topics, as 
you suggest, are frequently discussed within the 
administration. And let me first say that I think the bombing 
campaign has had very considerable impact on the leadership of 
ISIL. I can get you the exact figures, but a number of 
prominent leaders have been essentially taken off the 
battlefield and removed from office.
    Mr. Keating. Can I just jump in? Thank you. Can I just jump 
into this aspect? There has been a lot of discussion about 
rules of engagement, and it is a very difficult issue. But 
Russia is approaching this in a manner where, without 
discrimination, they seem contented bombing and killing 
innocent civilians, and not even trying to make efforts to 
avoid doing that, as opposed to the U.S. policy which takes 
that into consideration, as most countries in the world do. Can 
you comment on the importance of following rules of engagement 
to try, as the U.S. does, to minimize civilian deaths?
    Ambassador Patterson. Yes, Mr. Keating. As I mentioned, we 
have, particularly in this campaign, we have very strict, the 
U.S. Air Force has very strict rules of engagement on 
collateral damage, and that is in accordance with the 
President's instructions that our job is to minimize civilian 
casualties in every way possible.
    It is not only, might I mention, Mr. Keating, a moral 
issue, but it is also an issue of practicality, that you don't 
want to alienate, that the United States does not want to 
alienate the people on the ground.
    If I might go back to your issue of the ground forces, let 
me also say that one of our goals now is to work with partners 
on the ground who can serve this role as ground troops in 
support of a U.S. air campaign. We have supported, as you know, 
the Syrian Kurds and the Syrian Arabs, the Syrian Arab 
Coalition, and it has been very effective, I think, in closing 
the border, both to the influx of foreign fighters and to the 
export of refined products that provide revenue for ISIL.
    Mr. Keating. Is it fair to say, is it a fair statement to 
say that, not to categorize the Russian bombing actions as 
decisive, but rather immoral? Is that a fair statement?
    Ambassador Patterson. Yes, I would say that. I read 
yesterday rather graphic reports of the civilian casualties 
that they had inflicted on a village nearby. It seems quite 
indiscriminate, if I might say so.
    Mr. Keating. Okay. Thank you. I yield back.
    Chairman Royce. Thank you, Mr. Keating.
    We go to Mr. Jeff Duncan of South Carolina.
    Mr. Duncan. Thank you, Mr. Chairman. Thanks for holding 
this hearing.
    We are seeing a tremendous migration crisis in Europe as a 
result of the Syrian civil war and ISIS aggression in western 
Iraq and in Syria. This migration crisis is really threatening 
regional stability in Europe really to the tune that we hadn't 
seen since probably the 1930s. It is mind-boggling when you 
watch the videos of the number of migrants streaming into 
Eastern European countries and now Western European countries.
    I just have a question for Ambassador Nuland. Ambassador 
Colleen Bell works for you, does she not? Okay. The Ambassador 
to Hungary for the record.
    Ambassador Nuland. Yes.
    Mr. Duncan. You were also Ambassador to NATO. So, you 
understand the key role that NATO countries play with the 
security of the world and with cooperating with the United 
States, correct? Hungary is a very valuable ally, NATO ally, 
are they not?
    Ambassador Nuland. Yes.
    Mr. Duncan. So, why, then, after months of seemingly 
improved relations between Hungary, a western democracy and a 
NATO ally, as we have just confirmed, did the U.S. Ambassador 
decide to launch an unprovoked attack on Hungary last week? You 
are familiar with what Ms. Bell said, correct?
    Ambassador Nuland. Congressman, I am not sure specifically 
what comments of hers you may be referring to. She gave a 
speech last week where she reaffirmed U.S. support for a 
Hungary that is increasingly democratic. We have had concerns 
about government policy with regard to attacking corruption. We 
have had concerns about repression of media. I think she was 
probably, if it is the speech on----
    Mr. Duncan. She chastised the sovereign nation's ability to 
secure its own borders and put fencing up, if they so chose, 
did she not?
    Ambassador Nuland. Again, I would have to go back and look 
at precisely what she said. We have had concerns, as has the EU 
as a whole, about EU member states erecting fences, against EU 
policy, between each other. We have, instead, tried to support 
the policy of the EU as a whole to work together and to be in 
solidarity with each other in addressing the migrant crisis by 
registering, by----
    Mr. Duncan. I mean, I disagree. I disagree with some of 
that, based on what she said. So, the question to you is, is 
our diplomatic mission not to improve relations with our allies 
or is it one to scold those we need in NATO in order to meddle 
in their domestic affairs while stroking whatever egos are 
satisfied by such actions? Is that our diplomatic mission 
there?
    Ambassador Nuland. Congressman, even with our NATO allies, 
it has been the longstanding, one might argue 50-year, policy 
of the United States to support an increasingly democratic, 
stable, clean Europe. So, when we have concerns that a country 
is not attacking corruption in its midst, when we have concerns 
about the rollback of the democratic principles that undergird 
NATO membership, we are going to speak out about it, yes.
    Mr. Duncan. Well, Madam Ambassador, I disagree. I do think 
you are meddling in the affairs of a sovereign nation. When we 
look at the mass migration that is coming across Europe, are 
you going to interfere and chastise Germany if they decide to 
deal with the migrants that are affecting their nation? Are you 
going to chastise Slovenia or some of the other nations who are 
having to deal with this? They are having to deal with these 
huge--almost 1 million migrants have made their way into 
Eastern and now Western Europe. It is an issue, a crisis for 
them. The demographic is going to change the political 
atmosphere in those countries. These are sovereign nations that 
are going to have to deal with this. It is going to be a strain 
on their social programs, on their ability to do things for 
their own citizens. The demands being placed on them by these 
migrants, it is a game-changer in Europe.
    Is the U.S. policy one to interfere with sovereign nations 
in Europe and their ability to provide services for their own 
citizens and deal with the migration crisis? Is that the policy 
of the administration?
    Ambassador Nuland. On the contrary, Congressman, we are 
strongly supportive of the overall EU policy that they are 
putting in place now, which is to support each other in 
resettling these migrants appropriately and treating them 
tolerantly and sharing the burden in contributing to post-
country--in providing more funds to those countries where 
refugees are coming from.
    Mr. Duncan. My time is just about up, Madam Ambassador.
    Ambassador Nuland. However, when they start rebuilding 
walls between themselves and among themselves in contradiction 
of EU policy, we are going to support those who support----
    Mr. Duncan. I would recommend that you listen to Ms. Bell's 
statements and we have a retraction on that.
    I yield back.
    Chairman Royce. We go now to Lois Frankel of Florida.
    Ms. Frankel. Thank you.
    Well, first, I thank you for being here. I think you are 
just hearing some frustration. You know not to take this 
personally from anyone. But thank you.
    First of all, I just want to say and applaud, I think, the 
administration, the President, Mr. Kerry trying to get as many 
of the relevant world leaders together to try to come to grips 
with what is going on in Syria, is going in the right 
direction. That is a good step.
    It sounds to me that you, from comments especially--I 
forget which one of you said this--but it sounds to me that it 
is your opinion that Russia's actions in Syria are such that it 
will be self-destructive. I think that is what I glean from 
your comments.
    But, in the meantime, before Russia self-destructs 
themselves with what they are doing, there are so many innocent 
people who are being harmed. So, my question is, what kind of 
strategies or actions are you taking with Russia that can maybe 
change their course? That is my first question.
    Second is, what are we doing to actually protect the Syrian 
civilians within Syria and are there any further plans or is it 
hopeless to do a safe zone or a no-fly zone? Or is anything 
else being considered that we have not heard about?
    Ambassador Patterson. Ms. Frankel, let me say, first, that 
we don't think this is a slam dunk from the Russians by any 
means. They have basically got the whole Sunni world against 
them now, and I think it is an analytical fact that we may not 
have seen anything yet in terms of Jihad, because we have 
already seen imams in the Gulf call for increased Jihad against 
the godless Russian presence in Syria. So, I won't say they 
have bitten off more than they can chew, but they certainly 
have issues that they are going to confront, not the least of 
which is their huge Islamic population inside and on the 
perimeter of Russia vis-a-vis the civilians inside Syria, Ms. 
Frankel.
    Of course, half the assistance is provided, our 
humanitarian assistance to the tunes of billions of dollars 
provided to Syrians within Syria. Of course, there are zones we 
can't reach. But in terms of safe zones--and I am glad you 
asked this because there has been a lot of discussion about 
this--this is a hugely-complex and resource-intensive issue.
    And the administration has looked at this over and over and 
over again, and there is no option on the table, nor 
recommended by the Department of Defense, that does not require 
a massive amount of air support would, then, detract from the 
effort against ISIL. We continue to look at this. We continue 
to study this, but there is no viable option on the table at 
this time.
    Ms. Frankel. Ambassador Nuland, did you have anything to 
add?
    Ambassador Nuland. Simply to say that we have been very 
clear with the Russians about what we are seeing in terms of 
the results of their strikes. The Secretary has spoken to 
Foreign Minister Lavrov virtually every day; also, about our 
insistence that they exact some kind of restraint out of Assad 
for the support that they are giving, at least in the area of 
barrel-bombing. We will continue to share not only with the 
Russians directly, but with all of you and publicly, what we 
see. I think, as Assistant Secretary Patterson said, what the 
Secretary's hope is here is that, if you rope them into this 
diplomacy, they will see a better way to a peaceful solution 
than what they are doing.
    Ms. Frankel. Just one more question. I think we all have 
heard that the conditions for these Syrian refugees are dire, 
especially at the borders. I heard stories yesterday that my 
hair would go up straight if it could do that, but it sounded 
horrible.
    What kind of actions are you taking? I mean, I heard people 
living out in the open, no sanitation, very little food. What 
is the response?
    Ambassador Patterson. Ms. Frankel, occasionally, the 
neighboring countries close the border and these poor people 
get caught in these pockets. Usually, that is short-lived and 
the countries will open the border again. And so, we work with 
them constantly on that issue, to get these refugees into their 
countries.
    Most of these countries are hosting these refugees in host 
communities, and it puts a very significant strain on their 
public services and education, which is why support from the 
international community and continued financial support is so 
important.
    Ms. Frankel. Thank you.
    Thank you, Mr. Chair.
    Chairman Royce. Thank you. Thank you, Ms. Frankel.
    Okay. Mr. Darrell Issa of California.
    Mr. Issa. Thank you, Mr. Chairman, Ambassador, Ambassador.
    Subject du jour, Syria. Fourteen years ago, I made my first 
trip to Syria to meet with the unknown President Assad. He has 
been pretty well-defined over 14 years, and the Alawite 
dictatorship he heads has been pretty well defined over many 
decades.
    So, let me ask a question and, Ambassador Patterson, I 
think I will primarily frame it to you. More than 4 years, this 
administration called for regime change and not only did very 
little to make that come about, but, then, directly and through 
the Russians, negotiated various agreements, including, 
obviously, the chemical weapons departure.
    At this point, isn't it time to ask the question of, what 
do we really want to achieve in Syria since, one, the so-called 
Free Syrian Army has cost us some incredible number that I am 
not even going to say on television again, because it has been 
a complete failure. We have no Free Syrian Army. More Sunnis 
are fighting independent of us than with us by a factor of 
probably 1,000 to 1.
    So, let me ask you it in succinct way. Ambassador, isn't it 
time we figure out what is possible in a Syria that allows the 
millions of Syrians, Sunni, Shia, Alawite, Christian to return 
to their country?
    Ambassador Patterson. Mr. Issa, we don't believe it is 
possible to have any sort of settlement there, either a 
political settlement or any military defeat of ISIL, without 
the departure of Assad. These two issues now are inexorably 
linked. He has turned out to be, as you know, a magnet for 
terrorists all over the world, particularly, well, for many 
countries, even including our own.
    I guess I would differ from you that the Free Syrian Army 
has been a bust. I think there are efforts underway that, if 
corralled--and I know that you are aware of these efforts 
underway that have corralled our Gulf allies and our European 
allies in a common effort in Syria. So, I think there is really 
no alternative but to talk about his departure.
    Mr. Issa. Ambassador, I am not for a moment trying to 
predetermine the departure of Bashar al-Assad. I happen to 
agree with you that a future Syria should be a Syria with 
greater Sunni representation, with rights of Christians 
respected, and that he is probably not the ideal--he is a 
failed leader in many ways and I think history has already 
borne that out.
    But my question, and the reason I am asking it this way, 
is, if I were to ask you, do we have an effective battalion of 
Free Syrian military, you would have to say no. If I said, do 
we have an effective company, you would have to say no. If I 
asked if we had an effective platoon, you would say, well, we 
have got a platoon, but it is not quite effective.
    I just left the Marines' 240th birthday. Trust me, if I 
sent Marines in to evaluate those people, they would come up 
short of effective for any of them, and it has been 4 years.
    Isn't it true that the effective forces against Assad today 
are, in fact, non-ISIS fighters who disagree, but are not 
aligned with us; in other words, Sunnis who oppose Assad who 
are being bombed by the Russians as we speak?
    Ambassador Patterson. That is true in the north, Mr. Issa. 
I would say that it is not true in the south. But, certainly, 
in the north, the al-Nusra Front, which is an al-Qaeda 
affiliate, has absorbed, as have other smaller groups, have 
absorbed a number of what we would have previously called the 
moderate opposition, yes, that is correct. It is not true in 
the south, Mr. Issa, where I believe the moderate fighters are 
holding their own and holding territory.
    Mr. Issa. And let's go to the moderate fighters in the 
south and the effect on Lebanon for just a moment, which is the 
lead question people always assume I will ask. Today in Lebanon 
it has been widely reported, unclassified, that, in fact, the 
sectors that are being protected in Lebanon from ISIS are, in 
fact, a combination of the Lebanese armed forces, wherever 
possible, and Hezbollah in many of the Shia areas essentially 
protecting their own.
    Is that a workable solution and is the United States able 
to ensure that the Lebanese armed forces continue to get what 
they need will not unreasonably embolden Hezbollah for the 
future?
    Ambassador Patterson. Mr. Issa, I think the Lebanese armed 
forces under the circumstances have done nothing short of a 
remarkable job in protecting Lebanon. We have tried to increase 
the flow of material to them. We have, as you know, a robust 
training program by some of our highly-trained American forces. 
We have worked particularly with the Saudis to get them some 
additional funds to buy military equipment. It is an extremely 
high priority. I think they just had an encounter with ISIL day 
before yesterday. Contrary to many expectations, it seems to be 
working.
    Mr. Issa. And I want to thank you, Mr. Chairman, for this 
opportunity on Syria, and I want to thank the Ambassador for 
pointing out the success, which is Lebanon hosting nearly a 
third of its population as refugees while keeping ISIS out of 
that country. Thank you.
    Chairman Royce. Thank you, Mr. Issa, for making that point.
    Joaquin Castro of Texas.
    Mr. Castro. Thank you, Chairman, and thank you, 
Ambassadors, for being here today, for your testimony, and, 
most of all, for your service to the country.
    My first question is on migration. What effect has the 
Russian bombing campaign had on the flow of migrants, whether 
it has changed it, whether it has increased it? What is our 
read on that?
    Ambassador Nuland. Congressman Castro, as I said in my 
opening, we believe that it has led to an acceleration of 
migrants into Europe, in particular. We have seen those upticks 
in Greece, in Turkey, into Germany just since the Russian 
bombing.
    Mr. Castro. And have we found that the migrants intend to 
stay in Europe or want to come back? What is our understanding 
of that?
    Ambassador Nuland. With regard to Syrians, what we are 
getting from our European friends is that it is a mixed 
picture. You know, those who have hope that their country can 
come back together have left some relatives there and property, 
but many of them have lost hope and are looking for permanent 
resettlement in Europe, which is a question that Europe is 
struggling with.
    Mr. Castro. Sure. What about our Gulf partners? What role 
have they played with respect to migration and refugees?
    Ambassador Patterson. Our Gulf partners have been generous 
with funding. The Kuwaitis, in particular, have hosted three 
funding donors' conferences, given hundreds of millions of 
dollars, the United Arab Emirates as well.
    Perhaps the question you are asking is on the resettlement. 
The Gulf countries do not take in refugees. What they do is 
take in, basically, guest workers, and a number of the Gulf 
countries have a large number of Syrian employees really, but 
you cannot say that they are refugees. But they have been 
generous with their money.
    Mr. Castro. My second question is on the use of chemical 
weapons. Of course, in 2013, Russia agreed to essentially 
extract the chemical weapons from Syria, and Syria is now bound 
by the Chemical Weapons Convention. What kind of use of 
chemical weapons have we seen in Syria, specifically with 
regard to chlorine gas?
    Ambassador Patterson. We believe that we have seen chlorine 
gas. It would be a violation of the Chemical Weapons 
Convention, of which, of course, Syria is a signatory. We have 
referred it to the Organization for Prohibition of Chemical 
Weapons, and they are going to do an analysis and a report. 
Once we receive that, we will decide what steps to take.
    Mr. Castro. Have we determined that it is the Assad regime 
that is using the chemical weapons or could it be other actors 
as well?
    Ambassador Patterson. Our strong judgment is it is the 
Assad regime because they were seemingly dropped from 
helicopters, which are not in the possession of the opposition.
    Mr. Castro. Thank you. I yield back, Chairman.
    Chairman Royce. Thank you, Mr. Castro.
    Now we go to Mr. Mo Brooks of Alabama.
    Mr. Brooks. Thank you, Mr. Chairman.
    In your opinion, is Russia's use of military force in Syria 
good or bad, productive or counterproductive?
    Ambassador Nuland. Congressman Brooks, I think we have been 
pretty clear here that we do not think that Russia's military 
intervention is leading to a settlement of the Syrian conflict, 
that, instead, it is giving Assad confidence that he can stay 
in power.
    Mr. Brooks. Using words such as ``immoral'' to describe how 
bad Russia's conduct in Syria, is that fair?
    Ambassador Nuland. Assistant Secretary Patterson confirms 
that word and I don't have a problem with it, either.
    Mr. Brooks. What thought has been given to using a 
diversion strategy whereby we force the Russian military to be 
engaged in different parts of the globe; thereby, weakening 
their abilities to prosecute their military aggression in 
Syria? More specifically, how would a more aggressive military 
action in the Ukraine impact Russia's limited ability to expand 
its military operations in the Middle East? And by ``military 
action,'' I am talking about where we arm the Ukrainians; 
thereby, forcing the Russians to divert some of their military 
capabilities from Syria and other parts of the globe to Ukraine 
to try to protect the territory that they have either 
unlawfully invaded themselves or assisted their proxies in 
unlawfully invading.
    Ambassador Nuland. Congressman, I think you know that we 
have had a ceasefire in Ukraine that has largely been holding, 
not completely, but largely been holding since September 1st. I 
am confident that you would not be suggesting here that the 
Ukrainians reignite the war to draw the Russians deeper into 
conflict there. I don't think that would be good for Ukraine or 
for the stability of Europe.
    Mr. Brooks. Well, is this ceasefire, in actuality, just a 
way in which the Russians and their proxies can consolidate 
their territorial gains? Is that putting Ukraine in a position 
where they have to forfeit hopes of recapturing the land 
wrongfully taken by Russia and its proxies?
    Ambassador Nuland. Congressman, under the Minsk Agreement, 
as you know, the first step is ceasefire; the second step is 
pull back of weapons, then political progress in the Donbass, 
and then, return of the territory and closure of the border. 
So, what we are now starting to see for the first time in the 2 
years of this conflict is some pullback of Russian and 
separatists' weapons. So, that is a good thing. We are seeing 
that in Luhansk and now we are starting to see that in Donetsk, 
even though the ceasefire is not complete and we have had some 
tactical attacks in the last couple of days.
    So, again, if you want Ukraine to get that territory back, 
if you want Minsk implemented, what is most important is to 
lean on Russia and the separatists to complete those 
obligations, pull back their weapons, and allow real elections 
and allow return of the border.
    Mr. Brooks. Well, as of today, given the shifting of 
military equipment, has any of the territory taken by Russia or 
its proxies been returned to the Government of the Ukraine, any 
significant amount of territory? And if you could, if you are 
going to be able to answer that, give us all an idea as to how 
much, what percentage of territory has been returned to the 
Ukraine after Russia's invasion and how much has been kept in 
the hands of the Russians, keeping in mind that the Crimea 
itself is a rather large land mass.
    Ambassador Nuland. About 7 percent of Ukraine, if you count 
Crimea plus the occupation of eastern Ukraine, is lost to the 
control of the Ukrainian Government. As I said, with this 
ceasefire and the beginning of pullback of heavy weapons, 
Ukrainian authorities have not had access to that territory, 
but, increasingly, OSCE monitors have had access, and we need 
to encourage and accelerate that process. If we can get to----
    Mr. Brooks. One second. So, is your answer to the question 
zero?
    Ambassador Nuland. Zero.
    Mr. Brooks. As of today, zero land has been returned to the 
Ukrainian Government?
    Ambassador Nuland. As of today, zero.
    Mr. Brooks. How much in the way of weapons has the United 
States delivered to the Ukrainian Government in order to 
enhance Ukraine's ability to defend its territory?
    Ambassador Nuland. Congressman, through bipartisan 
generosity of both halves of this Congress, we have supplied 
over $266 million in security support for Ukraine. That 
includes extensive training of the national guard, now moving 
on to training the military. We have provided lots of kinds of 
non-lethal assistance, including UAVs----
    Mr. Brooks. Okay. I am talking about weaponry. What 
weaponry has been given to the Ukrainian Government to enable 
it to defend its territory or to recapture territory taken by 
Russia?
    Ambassador Nuland. It depends how you define weaponry, but 
we have provided counter-radar batteries, including short-range 
and now longer-range ones----
    Mr. Brooks. Any missiles?
    Ambassador Nuland [continuing]. UAVs. We have not provided 
lethal assistance to date.
    Mr. Brooks. No tanks?
    Ambassador Nuland. No, but we have provided combat vehicles 
like humvees, night vision, combat protection, et cetera.
    Mr. Brooks. Mr. Chairman, with indulgence, may I have 30 
more seconds?
    Chairman Royce. Yes, Mr. Brooks.
    Mr. Brooks. Thank you.
    The reason I mention this is due to the leadership of 
Congressman Engel, who is not here at the moment, of New York, 
the House passed a resolution in March of this year by a 348-
to-48 vote, about an 88-percent-to-12-percent bipartisan vote, 
which is overwhelming in the United States House of 
Representatives and to some degree a little bit unusual.
    That resolution of the House of Representatives in an 
overwhelming bipartisan fashion stated,

        ``That the House of Representatives strongly urges the 
        President to fully and immediately exercise the 
        authorities provided by Congress to provide Ukraine 
        with lethal defensive weapon systems to enhance the 
        ability of the people of Ukraine to defend their 
        sovereign territory from the unprovoked and continuing 
        aggression of the Russian Federation.''

    I would hope that you would carry back to this 
administration that message with a double benefit. One is we 
help Ukraine fight against aggression and, two, I would submit 
that it weakens Russia and Syria, which, in turn, helps to 
alleviate some of the problems that we have there.
    Thank you for your indulgence.
    Chairman Royce. Thank you, Mr. Brooks.
    Robin Kelly of Illinois.
    Ms. Kelly. Thank you, Mr. Chair.
    About 10,000 ISIS fighters have been killed this past year, 
but it seems like, despite that, they have been replaced by new 
recruits, new fighters. If we are going to destroy them, how do 
we cut off those new fighters, those new recruits?
    Ambassador Patterson. That is a big challenge, Congressman, 
and let me tell you the steps that are being taken. First, 
there is a step, under General Allen's leadership, who 
regrettably he is soon to leave the position. We have developed 
a number of working groups with our allies, for instance, with 
the United Arab Emirates, to try to message, to try to get to 
these young men and persuade them that ISIL isn't a viable 
future.
    We have worked with the Turkish Government--Ambassador 
Nuland can speak more to that--to close the border. And again, 
most of the border now is closed. We have worked with them to 
deport individuals who try to cross over into Turkey, into 
Syria.
    We have worked with our Gulf allies, again, to increase 
their message and their surveillance of individuals who might 
undertake extremist activities in Syria.
    But it is a big challenge, Congresswoman, because ISIL has 
managed to tap into Sunni grievances in a very big way. But we 
continue to press on this. I believe we are having some modest 
success, but, obviously, that is key to restraining the growth 
of ISIL.
    Ms. Kelly. What do you think about even the Americans going 
over? Have we had success in decrease those amounts?
    Ambassador Patterson. I think, all told, Congresswoman, 
there are really just a handful of Americans. I think, frankly, 
our law enforcement agencies and the communities that they work 
with, I think that is the key in the United States, is to have 
good relations in these communities, who then will alert law 
enforcement to a young man, mostly young men, who are 
susceptible to these blandishments.
    And the use of the internet and the sophistication of these 
messages is very alarming. But I think, as time goes on, we are 
getting better and better about understanding the 
countermessage and how the countermessage differs by culture 
and by country.
    Ms. Kelly. We don't talk much about the al-Nusra Front in 
Syria. What is our strategy to deal with that group of 
fighters?
    Ambassador Patterson. The al-Nusra Front is an al-Qaeda 
affiliate. They are a designated terrorist organization. They 
have been successful on the battlefield in the north, and they 
have absorbed some, what I would call, non-extremist fighters 
because their own groups have been affected and because they, 
essentially, have nowhere else to go.
    So, our strategy is that they are a terrorist group. They 
will not be part of any political settlement that is developed 
over time.
    Ms. Kelly. I yield back the balance of my time. Thank you.
    Mr. Connolly. Would my friend yield?
    Ms. Kelly. Yes.
    Mr. Connolly. I thank my friend.
    Ambassador Nuland, I want to go back to the understandings 
with Russia. We had this meeting with 20 countries that the 
Secretary pulled together. Russia was there. Russia has been 
violating Turkish air space. Was there a discussion at that 
meeting and an understanding that Russia will cease and desist 
against our NATO ally?
    Ambassador Nuland. The day of the Russian incursion into 
Turkish air space, the Secretary called Foreign Minister Lavrov 
immediately. As you know, the NATO Alliance also issued a 
strong statement of support for----
    Mr. Connolly. And did you get an assurance from the 
Russians they would cease and desist, was my question.
    Ambassador Nuland. My understanding is that the Turks have 
now sought and gotten a reassurance from the Russians that they 
will cease and desist.
    Mr. Connolly. But not us in the Vienna meeting that we 
called together?
    Ambassador Nuland. Well, we have made clear that it is 
unacceptable to be incurring NATO air space.
    Mr. Connolly. And did we do that in Vienna? Did we get any 
kind of assurance from the Russians?
    Ambassador Nuland. Again, they have made clear to us that 
they do not intend to do it again, but, obviously, we have to 
watch they do rather than what they say.
    Mr. Connolly. Do we have any understanding in terms of 
rules of engagement with the Russians in terms of their 
military activities in Syria? This hearing is about Russia's 
escalation in Syria.
    Ambassador Nuland. Congressman, in terms of direct 
negotiations, as you know, the Department of Defense conducted 
a very limited air de-confliction exercise with the Russians. 
We have an agreement on safe flight, which we have now tested, 
but we are not collaborating with them on where they can be and 
where we can be.
    Mr. Connolly. No, no. My question isn't collaboration. It 
is rules of engagement to make sure that there is not an 
inadvertent collision between our Air Force and theirs, our 
counselors and theirs, and the like.
    Ambassador Nuland. That was the goal of this agreement, 
this Memorandum of Understanding, that we have now concluded, 
that we will stay away from each other. We have an emergency 
hotline. We have emergency communications----
    Mr. Connolly. So, they are in place? Okay.
    Ambassador Nuland [continuing]. To protect our pilots, 
particularly because of the kind of flying that they do.
    Mr. Connolly. Thank you, and I thank my colleague for 
yielding.
    Chairman Royce. Now we go to Mr. Randy Weber of Texas.
    Mr. Weber. Before I begin, Mr. Chairman, let me tell my 
friend Gerry Connolly I am not going to yield to you. You have 
gotten more time than all of us combined. Just kidding, Ger.
    Ambassador Nuland, let me follow up with----
    Mr. Connolly. Were you yielding?
    Mr. Weber. No, no.
    Ambassador Patterson, let me follow up with your exchange 
with Congressman Keating when he said that some of the generals 
have said the air war wouldn't do it at all, and you said you 
had been involved in those conversations. Do you recall that 
exchange earlier today?
    Ambassador Patterson. Yes.
    Mr. Weber. Is the President aware of those conversations?
    Ambassador Patterson. The President and our senior 
leadership meet very frequently on these issues, of course.
    Mr. Weber. How long have those conversations been going on?
    Ambassador Patterson. Quite a while, Mr. Weber.
    Mr. Weber. A year? Two?
    Ambassador Patterson. Easily. Easily.
    Mr. Weber. Okay. Just curious.
    Ambassador Nuland, you said that Russia was spending $2.5 
million per day on their military excursion into the Ukraine. I 
am sorry, we don't know what it is in the Ukraine, but into 
Syria. How long can they sustain that?
    Ambassador Nuland. What I said was $2 million to $4 million 
a day, just to be clear.
    Mr. Weber. Okay.
    Ambassador Nuland. And it may well be more than that. You 
know, in a country like Russia where there is only one prime 
decisionmaker, if Russia chooses to make this a priority over--
--
    Mr. Weber. Okay.
    Ambassador Nuland [continuing]. The welfare of its own 
people, it could sustain it for some time.
    Mr. Weber. So, you have not calculated that? What is the 
U.S.'s outlay of expense on a day? Do we know that?
    Ambassador Patterson. I'm dated, Mr. Weber, but the last 
time I asked, it was about $8 million a day.
    Mr. Weber. So, four times, or if you use the two, two to 
four times the amount Russia is using, but we are getting one-
eighth the amount of airstrikes? Is that what I am to 
understand?
    Ambassador Patterson. Mr. Weber, that would include Iraq, 
the entire air campaign. But, again, we are not the Russians.
    Mr. Weber. Okay.
    Ambassador Patterson. And we have different standards.
    Mr. Weber. All right. And then, you said earlier--it might 
have been Ambassador Nuland--that the Gulf countries were not 
taking any refugees, but they had been very generous with their 
money. Was that you, Ambassador Patterson?
    Ambassador Patterson. That's right.
    Mr. Weber. Okay.
    Ambassador Patterson. That's right, Mr. Weber. I have the 
list of----
    Mr. Weber. Okay. Well, I am fascinated by my colleague Mo 
Brooks' idea of arming those in the Ukraine to maybe divert 
some of Russia's attention to increase, maybe to help defend 
Ukraine and to increase Russia's expense and cost, and maybe 
deflect them some from Syria.
    If the Gulf countries are, as one of you said--I think you 
said it was you--are very generous with their money, would they 
help in that regard to arm some of the Ukrainians against the 
Russians? Has that question been raised to them?
    Ambassador Patterson. As far as I know, that question has 
never risen, Mr. Weber.
    Mr. Weber. How about the question why won't they take 
refugees?
    Ambassador Patterson. Because they have very different 
types of societies, and I know that----
    Mr. Weber. But they do want their society to continue as 
they know it, right? And if ISIL overruns their societies, it 
will be gone?
    Ambassador Patterson. Yes, and they have a very--we have a 
very close degree of intelligence and military cooperation with 
our GCC, Gulf Cooperation partners, GCC partners. On cyber, on 
military, on intelligence, we have a very close relationship. 
So, yes, we work closely in anti-ISIL activity.
    Mr. Weber. But they could put up temporary camps if they 
are concerned about their society, tent cities, if you will, 
and they could actually take refugees and house them and feed 
them probably with a lot more money than some of the European 
nations, wouldn't you agree, if they were willing?
    Ambassador Patterson. I am not sure that is true actually 
because the level of social services and infrastructure is 
vastly better in Europe. But, of course, we do want the Gulf to 
play a more active role and we do encourage them and we do want 
them to provide funding for these activities.
    Mr. Weber. Okay. Now what happens--and Gerry Connolly asked 
the question about what if there was a problem between the 
United States aircraft and the Russian aircraft--in your 
opinion, what is going to happen when the Russian aircraft 
drops, the Russian military drops a bomb on some of our 50 
advisors over there? What happens?
    Ambassador Patterson. Well, we have these de-confliction 
procedures in place, as Ambassador Nuland just outlined, these 
de-confliction procedures that they were designed to avoid any 
conflict between Russia and----
    Mr. Weber. If that happens, would our pilots be authorized 
to shoot that plane down that dropped the bomb?
    Ambassador Patterson. I can't speculate on that.
    Mr. Weber. Ambassador Nuland, do you have any knowledge?
    Ambassador Nuland. Without getting into classified 
information, I would simply say that where we anticipate these 
special operators being, the Russians have been very far from 
that territory because, as you know, these special operators 
are operating against, would be operating against ISIL. And our 
concern is that Russia is operating in support of Assad.
    Mr. Weber. Well, let's keep our fingers crossed.
    I yield back.
    Chairman Royce. Dr. Ami Bera of California.
    Mr. Bera. Thank you, Mr. Chairman.
    I am going to play off some of the comments that my 
colleague from Illinois, Ms. Kelly, talked about. Our goal is 
to defeat and destroy ISIL, and it is clear that we don't have 
the forces, but we have had some success in terms of the forces 
on the ground.
    I think Ms. Kelly pointed out that the anti-ISIL coalitions 
killed about 10,000 ISIS fighters, and part of our challenge is 
that they are being replaced. We can have success, but some of 
it is stopping the replacement.
    I think, Ambassador Patterson, you talked about doing what 
we can at the borders certainly, doing what we can on tracking 
the fighters that are leaving some of the North African 
countries, some of the Middle Eastern countries, and even some 
of the Western States.
    I do think we are losing the propaganda war, though, right? 
I think ISIL has shown to be able to use the internet very 
efficiently, social media very efficiently. And maybe, 
Ambassador Patterson, this is a question for you. Are we doing 
enough to counter this propaganda war, to slow down their 
ability to recruit?
    Ambassador Patterson. This is a big challenge, but I think 
we are getting better at it. For instance, we have a joint 
center with the United Arab Emirates and it has to be in Arabic 
and it has to be in an Arab country. They have begun to put out 
products that are designed to discourage mostly young men from 
joining ISIL.
    We are working with a broad range, under General Allen's 
coalition, we have a working group on messaging. We have now a 
very large operation at the State Department and with the 
intelligence community that works on designing the most 
appropriate message for these individuals. So, I think we are 
making progress.
    We are also making progress--let me take Tunisia. Tunisia 
has the most Jihadis per capita of any country in the world. 
But in the past year we have worked intensively with them on 
intelligence issues and countermessaging and training religious 
leaders to counter that message.
    So, again, I certainly don't want to overstate this, but I 
think we have gotten better and are making at least some 
marginal progress.
    Mr. Bera. I think I would echo--the chairman has certainly 
led us on a number of hearings here. We have to redouble our 
efforts on the propaganda war, because if we can stop it on the 
front end, we won't have to fight them on the battlefield. And 
I do think we are losing that front-end propaganda war through 
social media and the internet.
    Ambassador Nuland, I would agree with you, very much so, 
that Russia's involvement is very counterproductive. It is 
exacerbating an already-challenging situation in Syria and 
certainly is escalating the refugee crisis and does threaten to 
wreak havoc in some of our allies, Jordan, Turkey. You are 
seeing our European allies struggle with this refugee crisis.
    I know there has been some discussion--and it is not easy--
about creating a safe zone within Syria and a no-fly zone 
within Syria where some of the Syrians that are fleeing some of 
the conflict zones can go. I would be curious about what it 
would take to potentially create that zone, Ambassador 
Patterson, or whoever.
    Ambassador Patterson. It would take a massive commitment of 
air power. It would take a massive commitment of air power, and 
it would detract the air assets from the fight against ISIL. 
There is no option, Congressman, that has been put on the table 
so far within the administration that is considered viable 
because of the enormous resources that it would require to 
protect the population within it.
    Mr. Bera. Okay. Great. Again, is that an option that is 
being discussed? Again, not an easy option, nothing about Syria 
is easy.
    Ambassador Patterson. It is constantly being discussed and 
it is constantly under review, but that is the current status 
of it.
    Mr. Bera. Okay. Great.
    Mr. Chairman, I will yield back.
    Chairman Royce. Thank you, Mr. Bera.
    We now go to Ileana Ros-Lehtinen, our chairman emeritus.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    And welcome, Ambassadors.
    I continue to be extremely frustrated by the 
administration's inability to implement or even articulate a 
strategy in Syria or in the Middle East as a whole. Despite the 
public facade, it does not appear that the President really 
wants Assad removed from power or that we have any 
understanding of the long-term tragic impact that Assad's 
policies are having on the Syrian people, on the region, our 
allies, on our national security, or else we know it and don't 
wish to do anything about it.
    Do we really need additional evidence to prove that the 
current chaos is not working? The President seems to be running 
out the clock until it is someone else's problem, and I don't 
think history will look kindly on the choices that this 
administration has made on the Syria issue.
    Some questions for you, and I would like to get yes-and-no 
answers, if I could. Do you believe that ISIL and Assad are 
separate issues?
    Ambassador Patterson. No, at this point----
    Ms. Ros-Lehtinen. Thank you.
    Ambassador Patterson [continuing]. Ms. Ros-Lehtinen, they 
are linked.
    Ms. Ros-Lehtinen. And do you agree that Assad's atrocities 
against his own people are a recruiting tool for ISIL?
    Ambassador Patterson. Absolutely.
    Ms. Ros-Lehtinen. Is it possible to defeat ISIL while 
Assad's massacres continue with Iran and Russia's help?
    Ambassador Patterson. No, the two issues are linked.
    Ms. Ros-Lehtinen. Is it possible to negotiate a solution 
with the opposition while they continue?
    Ambassador Patterson. Possibly.
    Ms. Ros-Lehtinen. Are we pressuring Iran and Russia to stop 
Assad's massacre?
    Ambassador Patterson. Absolutely, on a daily basis.
    Ms. Ros-Lehtinen. Should we infer that the President agrees 
more with Russia and Iran's goal of keeping Assad in power than 
he would have us believe?
    Ambassador Patterson. Certainly not. The President and 
certainly the Secretary have said many times that Assad's 
departure is absolutely critical to any future in Syria.
    Ms. Ros-Lehtinen. What has the President and the White 
House, through the Secretary of State, communicated to you 
about the administration's desired end-state and national 
security objectives in Syria, and is it possible to achieve 
those goals when Russia and Iran's goals are the complete 
opposite?
    Ambassador Patterson. The Secretary--of course, we have 
different goals in Syria--but I think the Secretary's goal is 
to find sufficient common ground through a process of 
negotiation and a political settlement, that we might be able 
to find a way through this. He is not naive about this. This is 
what the whole Vienna process and followup process is about.
    Ms. Ros-Lehtinen. And when you say common ground and a 
political settlement, does that entail keeping Assad in power?
    Ambassador Patterson. No, absolutely not, but it might 
entail some negotiation on a timetable for his departure.
    Ms. Ros-Lehtinen. And we would be working with who to try 
to achieve that settlement to have him go somewhere else?
    Ambassador Patterson. We are working with--in the Vienna 
process are 20 different countries. Obviously, our Gulf allies 
and the Turks. The Turks are intimately involved with this, as 
are some of our European allies. And we are constantly in touch 
with the U.N. and members of the moderate opposition and armed 
opposition within Syria and those civilian leaders in exile.
    Ms. Ros-Lehtinen. Those allies, do they see Assad's removal 
from power as imperative to deal with this situation?
    Ambassador Patterson. Certainly our European allies, our 
Gulf allies, and Turkey do see that. They are absolutely 
determined that he will not remain in power.
    Ms. Ros-Lehtinen. And to follow up on Ms. Frankel's 
questions, there is a lot of talk in different communities that 
we represent about whether the United States is doing enough to 
protect Syrian civilians from the Assad regime. Is that still 
one of the priorities of this administration, and how is that 
priority manifested?
    Ambassador Patterson. Certainly we try. We have provided 
over $2 billion, $2.5 billion, for humanitarian assistance 
inside Syria. So, we are certainly trying to feed and support 
Syrian populations who are under great stress.
    And we have certainly, as you mentioned, raised before, we 
have certainly talked with the Russians about preventing Assad 
from attacking his own people.
    Ms. Ros-Lehtinen. And the bombs that we have seen that have 
been attacking some of the forces with whom we are dealing and 
we are protecting and we are arming, and yet, some of those 
airstrikes seem to be targeting the very folks who are supposed 
to be the good guys in this battle. What are we doing to make 
sure that that ends?
    Ambassador Patterson. That is absolutely true, 
Congresswoman. We mentioned, I think, that 85 to 90 percent of 
the strikes were against anti-regime forces.
    And on your second question, we can talk more about that in 
a classified setting.
    Ms. Ros-Lehtinen. Just one last question; I know I am out 
of time. There has been a lot of discussion in the open press 
about like-minded factors like the al-Nusra Front being part of 
this coalition that will, then, defeat another band of bad 
guys. Are we in that coalition-building with folks who we would 
normally see as our enemies and the enemies of our values?
    Ambassador Patterson. Nusra Front is an al-Qaeda affiliate. 
It is possible that some members of the opposition have been 
forced to adhere, to join to al-Nusra because they had nowhere 
else to go. The al-Nusra Front and its leadership are terrorist 
groups.
    Ms. Ros-Lehtinen. And we will remain with that thinking and 
not help those groups with their alliances with other----
    Ambassador Patterson. No, we have designated Nusra.
    Ms. Ros-Lehtinen. Thank you. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Ileana.
    We go now to David Cicilline of Rhode Island.
    Mr. Cicilline. Thank you to our witnesses for being here 
and, of course, for your service.
    But I have to tell you I remain very concerned that the 
absence of a coherent strategy for success in Syria and Iraq to 
defeat ISIL, and further complicated by Russian escalation and 
really a failure to define what success is, continues to really 
plague us in Syria. Of course, the best way to press the 
administration and Congress to do this is to vigorously debate 
an authorization for the use of military force, during which 
the President would be required to articulate a strategy and to 
persuade both the American people and Congress of the 
likelihood of success of that strategy.
    And I recognize this is complicated. There are not easy 
answers. But I think it is compounded. Frankly, Ambassador 
Patterson, in your written testimony you indicate that our 
strategy in the Syrian conflict remains the same, essentially 
using diplomacy and military action to achieve a political 
transition. Of course, that is not a strategy; that is a goal.
    And so, I think what we are really looking for and what we 
need is a detailed plan of action with goals and a plan to 
mobilize resources to achieve those goals. That is really a 
strategy. I think that is really what we are missing and what I 
think is critical.
    But I want to ask some very specific questions. You said, 
Ambassador Patterson, in your testimony that the coalition has 
made progress in our military campaign against ISIL. But, 
according to Al Arabiya, as of October of this year, ISIL 
controls half of all the territory in Syria as opposed to July 
2014, when they controlled about a third of Syrian territory.
    So, first, is that correct, that ISIL, in fact, controls 
more territory now than they did in the summer of 2014? And if 
so, how is that progress?
    Ambassador Patterson. I think they do, they may control 
more land territory, but certainly there has been progress 
against ISIL in Tikrit and Bayji, in the efforts in Ramadi. 
Again, there has been considerable progress against the 
leadership. The top of my head, I think 60 leaders of ISIL, 
including some very important ones, have been taken off the 
battlefield. The effort by Special Forces against Abu Sayyaf, 
who was a leader of ISIL, and against his wife was an 
intelligence bonanza. So, there has been progress, but, as the 
President and everybody else has said, this is obviously going 
to be a multi-year campaign that is going to require consider 
resources to prosecute.
    Mr. Cicilline. With respect to the moderate opposition, 
there has been a lot of discussion about supporting the 
moderate opposition and that appears to be at least a tactic in 
our Syrian response. Who is the moderate opposition? The 
President has just authorized another $100 million expenditure, 
so now totaling $500 million. There are reports that there are 
as many as 1,000 armed militia groups and that much of the 
success of the larger groups, the FSA, comes about as a result 
of working alongside some of the most hard-line groups. So, who 
are we talking about when we are speaking about moderate 
opposition and do they, in fact, include elements of al-Qaeda 
and al-Nusra and other more extremist groups?
    Ambassador Patterson. Well, let me take the civilian 
moderate opposition, too, and that is the assistance figure 
that you are referring to. That is groups within Syria and 
groups that live in Turkey and Lebanon and other places.
    What that project is designed to do is to keep these people 
not only alive physically, but also keep them viable for a 
future Syria. Because we have managed to, even areas under 
control of ISIL--I won't mention them--but we have managed to 
provide money to city councils, to health clinics, to teachers 
and policemen. So, these people can still provide public 
services and form the basis for a new Syria. That is a good 
portion of that money goes into efforts like that.
    There is also the opposition on the ground. I think they 
have sort of gotten a bum rap in this hearing because I think 
they are more extensive than is generally recognized, 
particularly in the south. And, yes, of course, in the north, 
some of these individuals have affiliated with Nusra because 
there was nowhere else to go. But I think there is a wide range 
of moderate commanders that we have worked with closely, and I 
think they are viable and will be able to play a part in the 
future of Syria.
    Mr. Cicilline. Finally, the President, obviously, has just 
announced 50 Special Forces will be dispatched to Syria to 
advise and assist Kurdish forces in that region. Can you tell 
me what the end-goal of this is? What is the objective? How can 
we be sure that this limited deployment doesn't begin a very 
slippery slope and a wider, deeper military engagement in the 
Syrian civil war?
    Finally, you mentioned the financial support of the Gulf 
nations for the refugees. We have heard from a number of 
refugee organizations that there is not sufficient financial 
support from Gulf countries. I know you mentioned Qatar, but 
are there other countries in the Gulf that are not doing as 
much as they should? Because we are hearing a very different 
representation from refugee organizations that are charged with 
actually dealing with the crisis on the ground.
    Ambassador Patterson. Let me provide you right after this 
hearing with a list of support I have from the Gulf. I think 
some of the traditional refugee agencies, there is not enough 
money. There is simply not enough money for this enormous 
humanitarian catastrophe. Let me stress that.
    But I think the Gulf nations have both been generous with 
the U.N. and often their money is put through local Red Cross 
and Red Crescent societies, their local NGOs and PVOs. And so, 
perhaps there is some concern about that, that they are not 
going through the big international NGOs. But I will provide 
you with that.
    Mr. Cicilline. And what about the 50----
    Ambassador Patterson. On the 50, we talked a lot about the 
strategy of ground support and working with partners. These 50 
Special Forces are to work with the Syrian Arab Coalition, 
which has had considerable success in closing the border, and 
to improve their capacity. I think, anything else, we will 
provide it to you in a classified letter.
    Mr. Cicilline. Thank you, and I yield back, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Cicilline.
    We go now to Mr. Dana Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much.
    Let me just say that I am very frustrated by talk about 
Russia. I spent my entire life trying to defeat the Soviet 
Union, and I was very pleased to be part of the Reagan 
administration that helped accomplish that goal of bringing 
down a regime that wanted to impose an atheist dictatorship 
throughout the world in order to promote their ideology.
    And Russians expect to be treated as friends, the Russian 
people, after the fall of communism. And what has risen instead 
is a hostility that is just so overwhelming that it is 
damaging, not only has been damaging Russia and their ability 
to establish themselves in a new world role, because it is, 
after all, a major power in the world and they have interests. 
No matter if they are not communists at all, they are a major 
power with interests, just as we are.
    But the double standard that we have been judging Russia, 
and even is present in the hearing today, is just overwhelming. 
We sit here and say, ``Oh, well, Russia wants to keep Assad in 
power, how horrible that is because Assad is a dictatorship,'' 
as if Saudi Arabia isn't a dictatorship and wouldn't murder 
millions of people or thousands of people to stay in power. 
What about the other Gulf states run by kingdoms who would 
murder their people in great number? They are no different than 
Assad. In fact, they might be better than Assad because some of 
them are religiously-motivated to the point that it was sort of 
like communism was a religious conviction; well, their form of 
Islam sometimes puts them at odds with Sunnis or Shiites 
killing each other.
    The double standard that we have been judging Russia with, 
and basing our policy on that double standard, has caused us 
great harm. Great harm. Putin 5 years ago tried to work out a 
compromise with us, and we turned him down, that would have 
created at least some sort of semblance of stability in Syria. 
And now, it has totally gone to hell, and we still can't get 
ourselves to try to look at Putin as a possible partner in 
cooperation to make things better.
    I believe it is our hostility toward Russia that has 
prevented us from creating a policy that will create a more 
stable Middle East. And Gaddafi, we made an agreement with him 
about Gaddafi. And what did we do? We broke that agreement, and 
has that resulted in order to have the alternative, the non-
Gaddafi, non-Islamic alternatives into power, did that make it 
any better there? No. Libya today, half of Libya is controlled 
by people who want to murder us because they are radical 
Muslims.
    Had we been working with the Russians all along in good 
faith, I believe this situation in the Middle East would have 
been totally different and better, stayed more stable. And let 
me just note that I can remember the charges, the monstrous 
charges against us in Iraq, how horrible it was; our troops 
were murdering people by the thousands. Most of those reports 
were false, were wrong. They were lies by people who wanted to 
achieve a political end by claiming that we were massacring 
people intentionally in Iraq.
    Well, I don't know, is it possible that some of these 
reports that we are getting--yes, Assad is a murderous 
dictator, but some of the magnitude of his oppression and his 
murder of his own people might be exaggerated to achieve 
certain political ends. I would think so.
    We have a little time to answer. Let me give you a 
question, so you can--please feel free to disagree with 
everything that I say. I believe it, and I know you have your 
beliefs, too, and they are honest disagreements.
    But let me just ask, then, about, if, indeed, Assad is 
removed and we get this third alternative, why won't it be just 
the same as happened with Gaddafi, where the radical Islamists 
who hate us now see a weaker adversary, and it will come in and 
replace whatever that regime is very quickly with a regime that 
will control all of Syria and they will be radicals that will 
be our worst nightmare? Why wouldn't that happen in Syria the 
way it happened in Libya?
    Ambassador Patterson. I need to say something, Mr. 
Rohrabacher.
    Mr. Rohrabacher. Please feel free to retort what I said.
    Ambassador Patterson. With respect, I can't let it go by, 
the comparison of Bashar al-Assad with our Gulf allies. These 
countries are not in our image, but there is no way that they 
oppress their citizens or kill their citizens to the extent 
that Bashar al-Assad is.
    But let me----
    Mr. Rohrabacher. You are saying they wouldn't do that? They 
would not engage in use of the military to suppress their 
people if their guest workers decided to rise up?
    Ambassador Patterson. Yes, I am saying that, Mr. 
Rohrabacher.
    Mr. Rohrabacher. They wouldn't? That is very naive.
    Ambassador Patterson. Saudi Arabia is a country I know 
well, and they would not do that. That is not how it works 
there.
    But let me try to answer your question about Syria. There 
is broad consensus in the international community that the 
institutions in Syria would remain intact, the intelligence, 
the military, the police, the civil service, the ministerial 
structures, and that the goal is to remove Bashar al-Assad and 
his closest advisors and have ths political process that would 
lead to a new government. So, it is not to destroy the 
institutional structure.
    In Libya, I would argue there weren't any institutions.
    Mr. Rohrabacher. Okay. You have outlined it well.
    Ambassador Patterson. It is a very different----
    Mr. Rohrabacher. You have outlined it well.
    Why do we have to go in and make that decision in Syria? 
Why is it for the United States to step into this far-off land 
rather than going to perfect--there are lots of places we could 
go and perfect. Why is it for us to have to go in and do that 
when we know that you have got these radical Islamists who are 
just waiting on the sideline for some type of instability that 
they could take advantage of?
    Ambassador Patterson. Because our national security is at 
stake in the region, and the security of our allies like Israel 
and the GCC countries and Lebanon and Jordan, Turkey, is 
ultimately affected by what happens in Syria.
    Mr. Rohrabacher. That's right, and our policies are making 
the instability worse. In fact, dealing with Putin instead of 
trying to demonize him, perhaps we could have had more 
stability there and our friends would be actually better off 
than the current policy of, whatever we do, don't work with 
Russia and get rid of Assad. Putin is also helping us, by the 
way, with the General el-Sisi who we only give just lip service 
to try to help the man who has a pivotal role in stability in 
the Middle East.
    Chairman Royce. We need to go to Grace Meng of New York. 
The time has expired.
    Ms. Meng. Thank you, Mr. Chairman, and thank you to our 
witnesses for being here and all that you do for our country.
    My question is about growing concern of advanced Russian 
arms entering Syria at unprecedented levels and the possibility 
for advanced arms to pass to Syrian forces and even to groups 
like Hezbollah, which is high. What is the U.S. prepared to do 
to counter this? What have we done? What could we do more of to 
ensure these Russian arms don't end up in the hands of 
Hezbollah?
    Ambassador Nuland. Well, we have the same concerns that you 
do about the advanced weaponry flowing into Syria from Russia, 
from Iran. We have raised these concerns regularly with the 
Russians, including at the Presidential level, and we are 
continuing to monitor what exactly happens with them. The 
Russians, as you know, have now made a decision to put in 
ground artillery, and that is exacerbating the conflict further 
in Hama and in Homs.
    Ms. Meng. My second question is, Russia has conducted a 
number of airstrikes on rebel locations in the Syrian Golan, 
some strikes which are only about 30 to 40 miles from the 
Israeli border. Iran has also sent troop and military advisors 
to shore up Assad's rule, including on the Golan Heights, 
bringing Iran's influence directly to Israel's doorstep. 
Jihadist groups, including ISIS and al-Nusra, also continue to 
gain territory in northern and souther Syrian, including along 
the Golan Heights.
    In your opinion, how likely is it that fighting in Syria 
could spill over into Israel and what are the major concerns 
from the Israelis? And what can the U.S. do to help?
    Ambassador Patterson. Congresswoman, nothing is more 
important to us as a national strategic interest than Israel's 
security. And all these elements that you have raised, the 
Russian strikes, the pressure on Nusra in the Golan Heights, 
the Iranian presence, we are in constant contact with the 
Israeli Government and are working very collaboratively on 
this.
    I would say the Israelis can pretty much take care of this 
problem, and they have shown that in a number of ways that we 
can perhaps discuss later. But we have lots of collaboration on 
this issue.
    And on a broader issue, the Prime Minister, of course, will 
be here. We have given millions of dollars, billions of 
dollars, including Iron Dome, over the past 3 years. We will be 
discussing ways that we can enhance Israel's security 
generally, but these are concerns that we share with Israel and 
we meet with them and address them in all kinds of ways.
    Ms. Meng. Thank you. I yield back.
    Mr. McCaul [presiding]. Thank you.
    My question, first on Syria and, then, Iran. I have been 
briefed on the target packages in Syria. I think as you 
indicated, let me say, first of all, when you don't have a 
strategy and you fail to have a strategy, you end up with a 
power vacuum. And now, we have Russia filling that power 
vacuum, not unlike the terrorists do. And now, it has really 
created a complicated situation, from my perspective.
    When I look at the target packages of Russian strikes, as 
you mentioned, 90 percent are anti-Assad; only 10 percent are 
even remotely targeted toward ISIS. It raises a question of, 
why is Russia there? What is their intent?
    I have talked to our partners in the Middle East. Some say 
that Russia has told them it is to defeat ISIS, and then, 
others tell me that the only reason they are there is to 
support the Assad regime.
    Very briefly, what do you believe is Russia's intent in the 
region?
    Ambassador Patterson. Well, I think their main intent--they 
have several intents--but their main intent was to shore up 
Bashar al-Assad. He was losing ground, significant ground, when 
they decided to come in. They also want to protect their 
interests in Tartus. They want to reassert themselves, as 
Ambassador Nuland said. But their primary interest was to shore 
up Bashar al-Assad.
    Mr. McCaul. I tend to agree with that, and here is the 
problem that this now presents: You know, 50 Special Forces 
guys, they are our best, but that is not going to win the day. 
And I would argue they are in harm's way right now.
    If there was a strategy, it was the Sunni fighting the 
Sunni extremists. When I talk to nations like Turkey and Jordan 
and the Gulf states, they are willing to put a ground force in 
there to defeat ISIS, but they would never do so if it 
emboldened and empowered Assad. And that was kind of part of 
the agreement.
    Now that the Russians are in there backing Assad, it 
doesn't look like he is going anywhere anytime soon. So, where 
do we get our ground force now?
    Ambassador Patterson. Ambassador Nuland can speak more 
about this. We have been working very closely on an enhanced 
effort with the Turks to close the border. As I mentioned, the 
Syrian Air Coalition, which will be supported by our Special 
Forces, and, frankly, Mr. McCaul, we have had lots of 
discussions with our Gulf allies and with Jordan about the 
possibility of introducing ground troops. I think they have 
probably told you that, too. So, that is the status of that at 
this point. We work very closely with the Jordanians about the 
issues in southern Syria.
    Mr. McCaul. Jordan has been one of our best friends in the 
region. But, again, it is going to be difficult to get a Sunni 
ground force now that Assad is not part of the--it is going to 
be difficult to get Assad out now that the Russians are in 
there.
    Ambassador Patterson. Let me stress that that is our goal, 
to get Assad out. We don't think the Russians are going to have 
such an easy walk through Syria with the opposition of the 
entire Sunni world. So, there may be a political opening here 
that we can exploit to move him out.
    Mr. McCaul. I think if you could reach a political 
reconciliation, and perhaps even partition the Alawite from the 
rest of the country, that is a possibility. Right now, it is 
about de-confliction with the Russians, so we don't kill each 
other over there.
    Do you foresee any remote possibility of a joint strategy 
to defeat ISIS with the Russians?
    Ambassador Nuland. The only way we would end up in a joint 
strategy is if the Russians agreed to the general premise that 
we have to have a ceasefire, we have to have a transitional 
government, and we have to have a decision on getting rid of 
Assad. That is what the Secretary has been working on. In the 
meantime, we are working on ISIS and they are working in a 
different part of this area to defend Assad. So, I don't see 
working together militarily unless and until it is all efforts 
on a transition, and that would allow us, in turn, to focus 
good Syrian forces on----
    Mr. McCaul. Of course. And I would be very careful in 
trusting them. But I will tell you, based on the Boston bombing 
experience, I learned that we have a common enemy, and that is 
the Jihadists. The Chechen rebels, we know there are thousands 
of them joining ISIS. I predict that Russia is going to have a 
homeland security problem of their own, and as that becomes 
more of a problem for them, their desire to move away from 
protecting the regime to attacking ISIS, hopefully, will shift.
    Ambassador Nuland. I think that is what is so frustrating 
to us, is that we ought to share a goal of defeating ISIS and 
defeating those who come from Russia to join ISIS, but that is 
not what the Russian military is currently focused on.
    Mr. McCaul. My last question is with respect to Iran. We 
have reached this agreement, which I disagreed with, but, 
nevertheless, it is moving forward. Since that time, Iran has 
taken several provocative actions, including ballistic missile 
tests, the jailing of Americans on frivolous charges, and 
support for terrorist activities via the IRGC, the Iranian 
Revolutionary Guard Corps.
    The Quds Force is the terrorist arm of Iran. I sent a 
letter to the President of the United States requesting that 
the IRGC be placed on the foreign terrorist organization list 
because they are the terror arm of Iran. This would not lift 
the sanctions. It would keep the sanctions in place on the very 
terrorist activities that Iran wants to take the $100 billion 
and shift them toward these activities.
    What is your response to whether or not designating the 
IRGC as an FTO, whether that is a good decision?
    Ambassador Patterson. I am virtually certain they are 
already subject to sanctions, aren't they, Mr. McCaul? Yes, the 
IRGC----
    Mr. McCaul. Well, they are not designated as a foreign 
terrorist organization, which would make a difference.
    Ambassador Patterson. I can't answer that question, Mr. 
McCaul. I will have to get back to you. I would not think they 
would meet the legal criteria, but I don't really know. We will 
get back to you.
    Mr. McCaul. I would think that IRGC, with the Quds Force 
being the main sponsor of terror within Iran, would qualify to 
be a foreign terrorist organization, though.
    Ambassador Nuland?
    Ambassador Nuland. Again, I defer to Anne on the questions 
involving Iran.
    Mr. McCaul. Well, I look forward to the President's 
response. To date, I have not received one at this time.
    The Chair now recognizes Mr. Sherman.
    Mr. Sherman. It is always good to have you here. We hear 
folks say, ``Where's your strategy?'' That implies that the 
United States is in control of events, that we own them, that 
the outcome is determined by what goes on here in Washington. 
That is a very dangerous viewpoint.
    We can be a force for good, but to control the outcome, I 
would ask anybody to put forward a strategy that would lead us 
to peace, stability, and democracy in Iraq and Syria with 
modest American casualties and modest American cost. George W. 
Bush had a strategy to achieve that for Iraq. It failed.
    In the future, those who say, ``Where's your strategy?'' 
are really saying, ``Why can't you control the world at no 
cost?'' And that is a silly question.
    We are told by the gentlelady from Florida that the evils 
of Assad deliver recruits to ISIS. That is correct. But we 
should point out that the actions of Maliki and many who are 
still in the Baghdad regime do just as much to help ISIS 
recruit. Just because the government in Baghdad was installed 
by us doesn't mean it is part of the solution; it is part of 
the problem. And we ought to be looking very carefully at our 
aid to Baghdad when The Wall Street Journal can put on the 
front page how so many 100 dollar bills, amounting to tens of 
billions of dollars, are shipped from Washington and 
disappearing in Iraq, except they are turning up with ISIS.
    Ambassador Patterson, I have one little bit of advice for 
you, but, also, it will help the other bureaus next to you. And 
that is you ought to hire a couple of folks who are experts in 
Islamic theology, the Hadith, Islamic jurisprudence. You cannot 
understand and you cannot argue and you cannot persuade if you 
do not understand the mindset of both our friends and enemies, 
both of whom are drawing.
    If you need Congress to say not everybody has to pass the 
Foreign Service Exam--one or two experts--because the Foreign 
Service Exam does not ask the difference between a good Hadith 
and a bad Hadith. I know. So, you need some experts in this, 
both to talk to our friends and understand our enemies.
    As to chemical weapons, the administration achieved a major 
victory in getting all chemical weapons out, or virtually all 
out of Syria. Now chlorine remains. Hell, chlorine is next to 
every pool in my district. You can't prohibit chlorine. It is 
unfortunate that chlorine has been used illegally as a weapon. 
But those chemicals that are illegal per se appear to have been 
removed from Syria. I won't say you had a great plan or a great 
strategy, but you did have a great result on that issue.
    The solution to the refugee crisis is peace in Syria, not 
to cancel Syria and move its population to Europe. We had a 
policy that many of us pushed here in Congress to arm the 
reasonable elements in Syria. That policy has basically failed. 
It has failed for a couple of reasons. First, you did it years 
after we started pushing for it. But, second, it is still 
subject to the incredible and ridiculous condition that those 
we arm have to convince us that they do not intend to fight 
Assad. Any reasonable patriotic Syrian intends to fight Assad. 
So, no wonder we only find 50 people and we only have five on 
the battlefield. How do you find somebody who is reasonable who 
doesn't hate Assad?
    And I will point out that, while ISIS has the bad taste to 
put its murders right there on television, beheadings, it is 
the Shiite Alliance of Iran and Assad that pose the greater 
threat to the United States. They have killed far more innocent 
people and have killed far more Americans.
    Now, turning to Russia, Russia is not in a terribly strong 
position, $45-a-barrel oil. They cannot waste resources on 
peripheral matters. The Ukraine is of vital national interest 
to Russia. If it fails to protect Russian-speaking persons, 
Putin is gone. And if the Ukraine is successful, it becomes a 
model inspiring all Russians to change and follow that model, 
given the very close history between the Ukraine and Russia.
    Syrian, contrast, is not at the center of Russia's 
universe. There are substantial costs to what Russia is doing. 
Syria and Assad are very close to the center of Iran's national 
security. They dream of a Shiite control from Mashhad in 
eastern Iran to Latakia on the Mediterranean.
    Assad has been their longest ally. So, one would raise the 
question, not why is Iran doing what they are doing, but why is 
Russia? And then, we look at the timing. Russia deployed 
forces, at substantial long-term risk and cost to Russia, a 
couple of days after it became certain to those who are 
observing things, especially here in Congress, that Iran would 
get its hands on the $130 billion. First, they had to sign the 
agreement. Until that, they might not get their money.
    Then, you had to look around here and make sure Congress 
wasn't going to blow up the agreement. Well, it was pretty 
apparent that we were not going to blow up the agreement a few 
weeks after it was signed. And it was pretty much like a day or 
two after a lot of us concluded that Congress was not going to 
prevent this agreement from going into effect for the first 
couple of years, that Iran was going to get its hands on the 
money, that Russia started effort.
    So, the question is, if Iran is giving the money to Assad, 
so he can give money to Russia, or if Iran is sending the money 
directly to Russia, would we know about it? So, I will ask both 
of you, since one focuses on Iran and the Middle East and one 
on Europe, if there was a transfer of $1 billion from Tehran to 
Moscow, either through Damascus or otherwise, would we know 
about it and would it be public?
    Ambassador Nuland. Congressman, I don't think at this stage 
we have seen any evidence of payments to Russia. On the 
contrary, we see Russia hemorrhaging money on its latest 
adventure in Syria.
    Mr. Sherman. But if there was a transfer--and, obviously, 
Iran doesn't quite have its hands on the money yet; so Putin is 
going to have to wait a little while--but if there was a 
transfer of $1 billion this winter, are you confident that you 
would know about it?
    Ambassador Patterson. Let me answer that as not confident, 
but I think the chances are pretty good.
    Mr. Sherman. Pretty good you would know? Well, okay.
    And, Ambassador Nuland?
    Ambassador Nuland. Well, if it was in any dollar-
denominated form, we would likely know. But if they wanted to 
do a bushel of Iranian currency or rubles, maybe not.
    Mr. Sherman. Or euros.
    Ambassador Nuland. Euros I think we would know, yes.
    Mr. Sherman. You would know about a transfer of $1 billion? 
So, let me, then, ask: Obviously, North Korea was paid $1 
billion, $\1/2\ billion, for Al Kibar and the tremendous aid 
that they provided to a Syrian or a Syrian/Iranian nuclear 
program. Did we know about that? Or did the Israelis bring to 
us the fact that Al Kibar was a nuclear site many years after 
North Korea received payment?
    Ambassador Patterson. I don't know the answer to that, Mr. 
Sherman. I know that we have extremely close cooperation with 
the Israelis. They have sources that we don't have. I just 
don't know the answer.
    Mr. Sherman. Well, Israel spotted the location; nobody 
spotted the money. And so, the confidence that bad guys can't 
move money without us knowing or that Russia is financing this 
without being paid by Iran is untested.
    I yield back.
    Mr. Perry [presiding]. The Chair thanks the gentleman.
    The Chair recognizes itself for questions.
    Thank you, Ambassadors, for being here.
    The use of DoD of these 50 Special Operators, lo, the other 
folks that aren't characterized as boots on the ground, is an 
extension of diplomacy through means of exacting the policy 
that we would like to see happen in the Middle East or 
anywhere. It is just an extension. I think if you would kind of 
see it in those terms, it is cross listed.
    With that in mind, because it keeps on being stated that 
this is not a combat mission, so is there anywhere in the mix 
that State Department is in the chain of command and 
decisionmaking at all for what these Special Operators or 
people that wear a military uniform or are paid by the 
Department of Defense acting in Syria and Iraq in this 
operation, is there any State Department involvement in the 
decisionmaking process about what they do, where they go, and 
how they conduct their business?
    Ambassador Patterson. Yes, absolutely, Mr. Chairman. First 
of all, the State Department, through the Secretary, through 
General Allen who was coming to the State Department, 
participate in all these discussions and they work closely with 
the Turkish Government to work on the effort to close the 
border. And these Special Forces Advisors are critical to that 
effort. So, yes, we have been deeply involved in that.
    Mr. Perry. You are involved in the chain of command? So, do 
you do----
    Ambassador Patterson. Currently not, sir. They are not the 
chain of command, but the overall policy process, and 
particularly there have been State Department representatives, 
General Allen, now Brett McGurk, and others, on these teams, 
Ambassador Nuland, who have discussed these efforts at great 
length with the Turks.
    Mr. Perry. To come to some conclusion, and then, the 
military command makes the decisions and issues the orders 
commensurate with what you have come up with?
    Ambassador Patterson. Commensurate with what the President 
of the United States comes up with and instructs them to do. 
But, of course, these Special Forces Advisors are under the 
command of General Lloyd Austin.
    Mr. Perry. Okay. So, what is their mission? These 50, up to 
50, is what I hear, up to 50 Special Ops, what is their 
mission?
    Ambassador Nuland. Congressman, with respect, I think that 
is a question that we are going to defer to DoD and defer in a 
classified session probably.
    Mr. Perry. I mean, you have had the discussions, right? You 
just said you had the discussions, but you can't tell me the 
mission right now and that is classified. Yet, in everything I 
read, it is to advise and assist. I expected you to say, 
``advise and assist.'' Is that not their mission?
    Ambassador Patterson. Yes, it is to advise and assist, but 
what we can't sit here and tell you, Mr. Chairman, is where 
these fellows are going to be deployed, exactly whom they are 
going to be working with, exactly how many are going to be on 
the ground.
    Mr. Perry. Okay. I didn't ask you any of that, but I 
appreciate it. All right.
    Ambassador Patterson. But advise and assist.
    Mr. Perry. So, advise and assist to what end? What is the 
goal?
    Ambassador Patterson. The goal is to enhance our efforts to 
defeat ISIL, and we would be happy to give you a broader 
briefing on this.
    Mr. Perry. I mean, I think I understand it, but I want to 
make sure----
    Ambassador Patterson. To close the border. To close the 
border, sir. To close the border, so ISIL can't get recruits 
and ISIL can't export refined products, and to put pressure on 
Raqqah, which is basically ISIL headquarters.
    Mr. Perry. This goes to a larger strategy. So, if you are 
telling me it is to achieve, the goal is to close the border 
and somehow at some point defeat ISIS--I don't want to put 
words in your mouth, but that is what I see; that is what I 
hear. Close the border. Defeat ISIS.
    All right. We have got 50 guys that are going. Does that 
just strengthen Assad? Right? So, he has got ISIS and he has 
got local Sunni insurgents that are fighting him. And we take 
ISIS--let's just say in a perfect world everything in the 
strategy that we have, if you want to call it that, that we 
with these 50 guys defeat ISIS. Doesn't that strengthen Assad?
    Ambassador Patterson. You can't solve the problem of ISIL 
separate from the problem of Assad.
    Mr. Perry. I understand that, but----
    Ambassador Patterson. Okay.
    Mr. Perry. Okay. But tell me what happens if--let's just 
say the perfect thing happens, that you get what you want and 
our 50 operators, in conjunction with the Kurds and whoever 
they are working with, assisting and advising, defeat ISIS. Is 
Assad strengthened or he is weakened? He has Russia there right 
behind him right now attacking the very people that we have 
trained and are supporting.
    Ambassador Patterson. You have to do both.
    Mr. Perry. But we are not doing both. We are doing one. 
Right?
    Ambassador Patterson. We fighting ISIL and we are trying to 
get a political settlement to get President Assad----
    Mr. Perry. Okay. So, you don't want to answer that. But I 
would say that it does empower and increase the power of Assad. 
It does that.
    And so, with all due respect to the gentleman that was just 
sitting here when he says there is no strategy, and you people 
that say that there is no strategy, and that the strategy 
assumes that we can control everything from the United States, 
that is absurd. We had a strategy in World War II. We couldn't 
control the Emperor of Japan or the Fuhrer or Stalin, but we 
had a strategy, and sometimes we had to deviate and adapt, but 
we had a strategy. I would say this is not a strategy, but that 
is my contention.
    Now I am going to take some liberties here because 
everybody else seems to have done that. The President has said, 
his White House Press Secretary said that this is not a combat 
mission, right? Is Syria a combat zone? I mean, they are 
dropping bombs and they are shooting each other. Is it a combat 
zone or isn't it?
    Ambassador Patterson. An extremely complex battlefield, and 
what the President said is what you just quoted back to me, Mr. 
Chairman, that it was an advise-and-assist movement.
    Mr. Perry. Right. So, they are not to patrol or travel with 
opposition groups. But it also says that it could change as the 
situation dictates. Now I expect to tell me, because I am going 
to ask you, what would change, what changes would dictate, what 
situation would dictate them changing that not patrolling or 
traveling with? But you are going to tell me that that is a 
classified setting.
    Ambassador Patterson. Oh, I am not going to tell you that. 
I am going to tell you that I don't know and that is up to the 
President of the United States and the situation. Of course, he 
always reserves the right to change the role of American 
forces.
    Mr. Perry. Let me ask you this: If this isn't a combat zone 
and these forces are not on a combat mission, how is it that in 
May Delta Force Commandos entered Syria aboard helicopters and 
Ospreys and killed an Islamic State leader and about a dozen 
militant fighters, and one of our soldiers was killed just 
about a week and a half ago? If that is not a combat, what is 
that?
    Ambassador Patterson. That is, that was a--Sergeant Wheeler 
grew up 20 miles from where I am from--that was a mission to 
save Kurdish hostages and other hostages. They rescued----
    Ambassador Patterson. I know that, but you understand, when 
we imperil--these young men and women raised their hand and 
said they are going to defend the Constitution against all 
enemies, foreign and domestic, and pledge their lives, and it 
is with the proviso that the Commander-in-Chief and that the 
administration and the powers who be are going to sacrifice 
their lives for nothing. And these people are going into 
combat. We are saying it is not combat, but, indeed, it is 
combat.
    Ambassador Patterson. Mr. Chairman, of course it is combat. 
These people go into combat because the President of the United 
States orders them into combat.
    Mr. Perry. That's right, they go into combat. Somebody 
loses their life and they don't come home with a Purple Heart 
because they weren't in combat. They don't come back with the 
correct SGLI because they weren't in combat. Do you understand 
the ramifications of pledging your life and pledging their 
lives? It is important.
    Just a couple of other things. Because I reject the whole 
situation of the gentleman next to me who said there was no 
strategy, that those of us that said there was no strategy 
didn't have a strategy, that is absurd. There isn't a strategy. 
This is all tactics. And that George W. Bush didn't have a 
strategy, you might not have agreed with it, and I might not 
have agreed with it at times, but there was a strategy.
    And I would also reject that the war in Iraq destabilized 
the area. Up until the President left Iraq, it was pretty 
stable. It was pretty stable. It wasn't perfect, but it wasn't 
what it is now.
    With that, I will recognize Mr. Trott. Thank you.
    Mr. Trott. I want to thank the chair and, also, thank both 
of you for being here today and for everything you do for our 
country.
    Ambassador Patterson, would you say our policy in the last 
4 years has been a success in Syria?
    Ambassador Patterson. I would say we have not succeeded in 
removing Bashar al-Assad from power, and I would say that ISIL 
is not defeated, but it will be a long, hard struggle to defeat 
ISIL.
    Mr. Trott. And do you think that insouciance on the part of 
the administration has contributed to our failure or not really 
impacted it? I mean, has the inability to make a decision a few 
years back complicated where we are today?
    Ambassador Patterson. I don't want to speculate on that, 
Mr. Trott. I don't know and I wasn't around when those 
decisions were made, and I don't want to speculate. We are 
where we are now.
    Mr. Trott. Right. So, let's look forward. The policy going 
forward is we are going to have 50 Special Forces. We are going 
to continue with the airstrikes, and we have heard a lot of 
criticism of our policy there. Last week, you know, one day 
Russia attacked 94 targets; we attacked one.
    We are going to start and have been calling out Russia for 
violating international law with respect to the rules of 
engagement. We are going to ask Assad to stop dropping barrel 
bombs on his citizens. We are going to have meetings about a 
transitional government. Iran will be at the table. Opposition 
groups may or may not be.
    And this strategy, as best I can discern this morning, is 
going to work because this is too complex for Russia. They are 
going to lose interest. They are going to run out of money, and 
it is just too difficult. Is that a fair statement of our 
strategy going forward? And if it isn't, please enlighten me as 
to how you believe the strategy is different than what I just 
described.
    Ambassador Patterson. I think our strategy is--no, I don't 
think that is a fair characterization of our strategy.
    Mr. Trott. I mean, I have heard a number of times today 
Russia really isn't going to be in it for the long haul. They 
don't have the money. They have other problems. This is not a 
strategic interest that they want to put resources behind.
    So, it seems to me that the gamble we are taking going 
forward is our strategy is going to succeed because Russia is 
going to lose interest. Tell me what I missed.
    Ambassador Patterson. Well, no, our strategy is to mobilize 
the rest of the international community, including our Gulf 
allies and Turkey, to work toward a political solution and to 
work hard to defeat ISIL. I think the contributions on the 
defeat of ISIL and the efforts we are taking, which aren't just 
the 50 Special Forces, but also the strengthening of our 
position at Incirlik and the steps we are taking in Iraq will 
all accelerate the defeat the ISIL. So, that is a key element 
of this that has sort of been, in my view, underplayed in this 
hearing.
    Mr. Trott. Ambassador Patterson, you said earlier we are 
talking to the Russians. So, I have two questions. Are they 
listening? I know we have the MOU that was entered into last 
month. So, that is perhaps evidence that they are listening. 
But are they really listening to what our objectives and goals 
are? And what evidence do you have that the fact that we are 
taking to the Russians is moving them around on what our 
different goals are in Syria?
    Ambassador Nuland. Congressman, as we have said throughout 
the morning, the conversations we have been having with them 
have not affected their military choices. They have not changed 
their pattern of bombing. They have also not taken us up on our 
insistence that a minimum price for their support for Assad 
ought to be to get him to stop barrel-bombing.
    So, on the military side, I would say that they are not 
listening. They also are not listening to the Gulf Arabs. They 
are not listening to the Europeans. They are not listening to 
the vast majority of innocent, peaceful Sunnis who are greatly 
concerned about the collateral damage from their dumb bombs.
    That said, we do have them in this political process that 
Secretary Kerry is leading. In that process, they are in the 
minority in terms of their perception of how long Assad should 
stay. So, the question is whether continuing to participate in 
that will bring the force of the majority to cause them to 
reevaluate their view.
    Mr. Trott. Ambassador Nuland, you said a few minutes ago 
that it will be difficult to get--and if I am putting words in 
your mouth incorrectly, please tell me--but, basically, I think 
you said that it will be difficult to get to a transitional 
government if Russia never gets on the same page with respect 
to our goals in Syria, and if that is a fair statement or if 
they never listen to us with respect to their military 
operations. So, assuming for the moment they never listen, we 
never get on the same page, what do we do then?
    Ambassador Nuland. I don't think I quite characterized it 
the way you did. One thing that the Russians have said is that 
the Syria people should be in charge of their own future. So, 
the other piece of this that I think we have underplayed this 
morning, although I would defer to Assistant Secretary 
Patterson, is where the Syrian representatives, whether they 
are regime folk other than Assad or whether they are extremes 
of the opposition, want to take this, given the fact that the 
country is being torn apart by what is happening now.
    Mr. Trott. But, just looking down the road, if Russia 
doesn't want to ever move toward a transitional government, 
what do we do then?
    Ambassador Nuland. Again, I think we can't project a 
straight line from here to there. We are increasing our support 
for the moderate opposition. We are raising the cost for 
hitting the wrong folk. We are trying to mobilize the rest of 
the international community to lean on the Russians. We will 
see. This thing is costing them. It is also costing them at 
home.
    Mr. Trott. Right. And I will yield back. But I think it is 
a mess. When we had good options, we didn't make a decision 
several years ago. And I think what someone said earlier today 
is exactly correct, which is we are just trying to run out the 
clock. And so, the next administration will inherent a 
situation in Syria that has Russia just as engaged as it is 
today and our options will be even more limited.
    Thank you. I yield back.
    Mr. Perry. The Chair thanks the gentleman.
    The Chair recognizes the gentleman from Florida, Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman.
    I appreciate you both being here.
    I am amazed at the level of what appears to me--I have only 
been here for 3 years in Congress--but it appears to be a high 
level of incompetence, lack of strategy, lack of planning, and 
it is almost laughable, other than there has been over 250,000 
Syrians slaughtered, the billions of dollars it has cost us, 
the risk to our military.
    I look at this stuff, and I just want to go through a 
timeline since my time in Congress. Obama, August 2013, this 
administration was going to attack Syria and do no-fly zones. 
We sat at the White House. There was no strategy. They didn't 
have an estimate of the cost. Mr. McDonough, the Chief of 
Staff, said it would be over $1 billion a month. I asked him 
how long it was going to take. He said, estimated 10 years at 
$1 billion a month.
    And we had just shut down. There was no authorization to go 
over there. We are attacking a sovereign nation without an 
AUMF.
    President Obama went on to say there was a red line if 
Syria uses chemical weapons. They used it. There was no follow-
through. They failed to act.
    The President and John Kerry both said that Assad must go. 
Then, they denied it, said they didn't say that; the world said 
that.
    John Kerry said there was no diplomatic solution to the 
chemical weapons problem in Syria. Yet, 2 weeks later after he 
said that, Russia jumped in there, showed leadership, and 
within 2 weeks there was an agreement to get rid of the 
chemical weapons. And I find it interesting that we didn't 
think that could happen. Yet, Russia brokered it, and we wound 
up paying for it.
    The President said no boots on the ground multiple times. 
``No boots on the ground.'' ``No boots on the ground.'' And 
then, we went with a $500 million to train, equip, and arm 
5,000 to 6,000 vetted Free Syrian Rebel Fighters, whatever that 
is. And we find out a year later that is a complete failure. 
They have trained possibly 40 to 50, but only 5 made it to the 
field, at the cost of $50 million. That is $10 million a 
fighter. It has got to be laughable other than it is reality 
and it is just bad form.
    I guess my question is, why hasn't the President worked to 
create the safe zones when especially the chairman of this 
committee, Chairman Royce, and Ranking Member Engel asked for 
that 4 years ago? Why has that not happened?
    Ambassador Patterson. Because it is hugely difficult, 
complex, and----
    Mr. Yoho. Okay, I am going to stop you there because you 
said that earlier today.
    Ambassador Patterson. Okay.
    Mr. Yoho. It is hugely complicated, difficult, expensive--
--
    Ambassador Patterson. And resource-intensive.
    Mr. Yoho. Resource-intensive.
    Ambassador Patterson. Let me answer----
    Mr. Yoho. I am going to stop you there because I want to 
add this. This is what I wanted you to bring out. It is 
complicated, extensive, very costly. How costly is it to have 4 
million displaced refugees that have gone around the world that 
have disrupted the whole world as far as refugees just leaving 
there, 7.5 million displaced in Syria? That is pretty costly, 
too, isn't it? Isn't that disruptive?
    Ambassador Patterson. That is costly and we are trying to 
contribute to alleviate that problem.
    But let me talk in more detail about some of these safe 
zones/air exclusion zones. The Department of Defense has not 
proposed an option that does not have a very significant 
contribution/investment of U.S. air power. That air power would 
be diverted from the fight against ISIL. The fight against 
ISIL, which is an extraordinary virulent terrorist group, is a 
threat to us and our allies and the neighbors. So, that is the 
first priority.
    It is also extremely difficult to patrol and to protect 
these safe zones on the ground, and that would require a very 
significant investment of ground forces of some sort. But the 
primary reason is the investment of air power.
    Mr. Yoho. If we are going to attack this, we need to attack 
it. And then, the lack of diplomatic efforts or even a hint of 
that, over the last 3 years I have not seen it until Russia 
steps in there. And then, Russia puts in 2,000 troops, brings 
in the tanks, brings in all this armament. And we respond with 
50 ground troops when the President said no American troops on 
the ground. This is an escalation. This is the beginning of an 
escalation of troops that are going to happen.
    And my question to both of you is, why should I, or anybody 
on this committee or anybody in Congress, support anything this 
administration attempts with such a poor strategy of winning 
this. You know, the President doesn't even come out and 
acknowledge who we are fighting, ISIL, radical Islamic 
Jihadists. They won't even acknowledge that. Yet, we are going 
to kind of go at this and kind of do little efforts to try to 
defeat ISIL. I think it is a joke.
    Again, my question is, why should I support anything this 
administration does in the Middle East, Syria, the Middle East, 
or even in the Ukraine, with the lack of strategy that I see?
    And you were talking about how we have to protect Israel. 
But, yet, we have the Iran nuclear deal that does anything but 
protect Israel. Why should I support this, anything they are 
doing?
    Ambassador Patterson. Well, I guess the short answer, 
Congressman, is that ISIL is a threat to us and to our European 
allies and to the neighbors in the region. And we are already 
seeing incursions by ISIL, pressure against Jordan and pressure 
against Saudi Arabia. I think that is the short answer. You 
have asked a much broader question, I think, but I think that 
is the short answer to your question.
    Mr. Yoho. Well, if we are going to attack them, if we are 
going to do this, let's do it right and let's get a strategy, 
and let's make it count, instead of just kind of playing around 
with it. And I don't mean playing around with it because we 
have got troops on the ground, and I am sure if they are on the 
ground, they don't think they are playing.
    I yield back.
    Mr. Perry. The Chair thanks the gentleman from Florida.
    Without objection, I am pleased to recognize Mr. Jeff 
Fortenberry of Nebraska, a former member of this committee, who 
has remained engaged on these issues, and particularly the 
plight of Christians and other religious minorities in this 
region of the world.
    Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    Madam Ambassadors, welcome. I am sorry I didn't have the 
benefit of hearing the earlier conversation, but I do want to 
divert to the question that the chairman just laid out.
    Before I do so, Ambassador Patterson, we met a number of 
years ago when you were in the Consulate at Peshawar, Pakistan. 
That was a few days before there was an assassination or a 
kidnapping attempt upon you. And then, from there, as I recall, 
you went on to become Ambassador in Pakistan as well as Egypt. 
So, I just want to thank you for your many years of dedicated 
service in very difficult areas.
    I don't think we have had any interaction, Ambassador 
Nuland, but I appreciate both of your willingness to testify 
today.
    One of the grave concerns in the Middle East is this, and 
let me divert for a moment by telling you a story. I happened 
to be in an audience with Pope Francis a little while back, and 
he was presented a small Christian crucifix. It was worn by a 
young Syrian man who was captured by the Jihadists, and he was 
told to convert and he refused, and he chose his own ancient 
faith tradition, Christianity. And he was beheaded.
    His mother was able to recover his body and found the cross 
and fled and made her way to Austria, where she settled as a 
refugee. And through that means, one of the persons that I was 
with in this audience was able to present that to Pope Francis.
    One of the more dramatic parts of this crisis that seems to 
come and go in regards to our attention is this deliberate, 
systematic attack on Christians and other faith traditions, 
including Yazidis and other religious minorities. And by the 
way, I have the largest Yazidi refugee population in America 
where I live in Lincoln, Nebraska.
    Is this genocide?
    Ambassador Patterson. I don't know the answer to that. I 
think that is a legal term. I think there will be some 
announcements on that very shortly.
    Mr. Fortenberry. Well, I would appreciate both of your 
willingness to engage robustly on this topic. The reason is we 
have, as the chairman alluded to, introduced a resolution that 
does call this genocide. And while there are certain 
international legal implications from that, nonetheless, 
elevating the plight of Christians and other religious 
minorities in their own ancient homeland, including Syria which 
is approximately, Christians are about 10 percent of the 
population, raises the international consciousness of this and 
provides a gateway for further strategy around defense and 
security measures, as well as, once all of this, hopefully, in 
the future stabilizes, reintegration of those populations back 
into their rightful homelands.
    And this is a very important, I think, gateway to use this 
resolution or the resolution is an important gateway for not 
only the discussion to elevate consciousness, but, again, a 
larger platform as to how to stabilize these areas and demand 
that the rich diversity of religious tradition that has existed 
in some of these areas be allowed to not only return, but 
flourish, as a part of any political or security settlement 
moving forward.
    I think there are significant problems with this, 
obviously, in Iraq as well. We have been able to form a new 
burgeoning relationship with the Kurds who have been very 
respectful of religious plurality and have undertaken waves of 
immigration or refugee populations and absorbed that, as well 
as the Jordanians and the Lebanese. This is a very important 
components as we move forward an think through a strategy that 
actually brings about some stability and maybe a political 
settlement moving forward.
    In this regard, there is another problem, however, that I 
would like to point out. It is my understanding that we have 
only admitted 53 Christians as refugees from the conflict in 
Syria. So, that is disproportionate, obviously, to the 
population size. Can you give any perspective on that, please?
    Ambassador Patterson. My colleague Anne Richard was here 
with Mr. Rodriquez a few weeks ago to talk about refugee 
admission policy. And the numbers, I think we have admitted 
about, as of today, a little over 2,000 Syrians and we are 
planning to admit some more, of course.
    They have to meet very strict vetting requirements and 
research into their particular circumstances and background. I 
don't have an answer why the Christians are underrepresented.
    Mr. Fortenberry. Yes, I think one of the challenges is that 
Christians are generally not in refugee camps. So, they will be 
spread out through the population, whether it is in the 
basement of a relative or in some church basement or in some 
other circumstance versus cordoned into some definable entity 
like refugee camp. I think it is part of the problem. But, 
clearly, this segment of Syria's population is under grave 
stress, as are others.
    Ambassador Patterson. Mr. Fortenberry, we entirely agree 
that these communities are under enormous stress. We have been 
in close contact with them through their religious leaders, 
both in country and their religious leaders here in the U.S. 
And we are very mindful of the points you make, that the most 
desirable outcome for them after thousands of years is that 
they be reintegrated into these countries and not dispersed.
    And so, we try to work with these communities. We try to 
sustain them. But I will take your point back about the refugee 
admissions and get you an answer.
    Mr. Fortenberry. Thank you very much, Mr. Chairman, for 
accommodating me today, and a pleasure to speak with you both. 
Thank you.
    Mr. Perry. The Chair thanks the gentleman.
    The Chair also recognizes Mr. Engel.
    Mr. Engel. Thank you very much. I know you have been here 
for a while. I was over at the White House with a series of 
appointments. But I did want to try to come here, not so much 
to ask questions, but to publicly compliment both of you. You 
are two of the most capable people I have had the pleasure of 
dealing with and meeting, hard-working and smart and tenacious, 
and all the nice things I can say about both of you. So, I want 
to just thank both of you for your service to our country. It 
really means a great deal when we can have people of your 
caliber and intellect and hard work and work ethic working for 
the United States of America. So, I just wanted to thank you.
    I have treasured the times through the years that I have 
had the opportunity to speak with both of you in person, on the 
telephone, and everything else. So, just thank you.
    I am sure everything has been covered, and I will read the 
script very, very carefully.
    But neither one of you has ever said no to me when I needed 
to meet with you or ask you something. And so, just a very 
great, bipartisan thank you to both of you.
    Mr. Perry. The Chair thanks the gentleman.
    The Chair would also like to thank the Ambassadors for 
being here. We know that you are sent here on a tough mission, 
and please don't take any of the remarks from the dias here as 
personal. We have a charge of oversight and to get the answers 
on behalf of our constituents. As you can tell, many of us on 
both sides of the aisle are very frustrated with the 
circumstances.
    I do have one question before you pack it all up that I 
think a lot of people watch what is happening and they don't 
know the answer to this. Ambassador Patterson, you said--I 
think you were asked earlier about the refugee flow into Europe 
and why some of the Arab countries weren't doing more, except 
for paying to help ameliorate that. I think the sense was, why 
aren't they taking? Why aren't they taking some of or many of 
these refugees? I think your answer was they are very different 
societies and they don't accept, and so on and so forth.
    With all due respect, it seems to me that Europe is a very 
different society than much of Arabia. Are we doing nothing? Do 
we have no plan? Do we have no interest in urging and 
pressuring and cajoling our Arab partners, so to speak, in the 
region bordering Syria particularly to take any of these 
refugees or do anything more than have them move lock stock and 
barrel across seas, dangerous journeys across land and 
mountains and cold, and everything a cultural difference for 
them into Europe? Is there no other effort in that regard?
    Ambassador Patterson. Well, certainly, Mr. Chairman, there 
are efforts to encourage these countries to take in more 
refugees. It is not that hundreds of thousands of Syrians don't 
live in these countries. I think the issue for these countries 
is that a number of them have tiny domestic populations, and a 
population of foreigners, guest workers that are in some cases 
8-to-10 times the local population. So, they are very reluctant 
to take in additional----
    Mr. Perry. But isn't that a similar circumstance in many of 
the European countries, the smaller ones, that the same exact 
circumstance is present at that moment? They are small 
populations currently, and they are being overrun. Their 
services are being overrun by people of a completely different 
culture and----
    Ambassador Patterson. Yes. No, no, but, again, we have 
encouraged the Gulf countries to take in more refugees. And 
again, we have encouraged them to give generously to the U.N.--
--
    Mr. Perry. Is there any plan for more than encouragement, 
like some subtle pressure maybe, diplomatic pressure, economic 
pressure, pressure to help alleviate the situation? It seems 
fantastic to many of us that they are happy to help watch this 
inflow of humanity into Europe and take almost virtually none 
of it in themselves.
    Ambassador Patterson. Well, again----
    Mr. Perry. And I know some of the countries in the region 
have, but some have not, and some of the larger ones have not.
    Ambassador Patterson. Jordan and Lebanon and Turkey have 
taken millions of these refugees.
    Mr. Perry. Right, right. But there are other ones that 
border that have not taken.
    Ambassador Patterson. Yes. And the other thing, I think the 
phenomenon we are seeing at this time now is that most of them 
prefer to join family members who have gone to these other 
countries. I actually do not think there has been such a draw 
for these refugees to resettle in the Gulf. Again, there are 
hundreds of thousands of Syrians----
    Mr. Perry. Well, if they are not welcomed in the Gulf and 
they are welcomed in Europe, after leaving a war--you know, 
once you decide to leave everything, I would imagine you would 
go where you feel more welcomed. But, if you are not welcomed 
at all in the neighboring countries, you are going to choose 
the best of your options, I would imagine.
    And so, that is just a thought. And I think that a lot of 
Americans ask that question. So, I appreciate your answer. I 
would hope that the administration would do more, as much as it 
could to encourage our partners and allies in the region to do 
more than what they are doing in regard to physically taking 
those refugees.
    And I thank you.
    At this time, this hearing is adjourned.
    [Whereupon, at 12:49 p.m., the meeting was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
